<html>
<title> - EQUIPPING CARRIERS AND AGENCIES IN THE WIRELESS ERA</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
          EQUIPPING CARRIERS AND AGENCIES IN THE WIRELESS ERA

=======================================================================



                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 27, 2013

                               __________

                           Serial No. 113-63


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
86-387                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
  Vice Chairman                      MICHAEL F. DOYLE, Pennsylvania
PHIL GINGREY, Georgia                JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   JOHN BARROW, Georgia
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            DONNA M. CHRISTENSEN, Virgin 
BILL CASSIDY, Louisiana                  Islands
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
CORY GARDNER, Colorado               BRUCE L. BRALEY, Iowa
MIKE POMPEO, Kansas                  PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Missouri
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina
             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
LEE TERRY, Nebraska                  MICHAEL F. DOYLE, Pennsylvania
MIKE ROGERS, Michigan                DORIS O. MATSUI, California
MARSHA BLACKBURN, Tennessee          BRUCE L. BRALEY, Iowa
STEVE SCALISE, Louisiana             PETER WELCH, Vermont
LEONARD LANCE, New Jersey            BEN RAY LUJAN, New Mexico
BRETT GUTHRIE, Kentucky              JOHN D. DINGELL, Michigan
CORY GARDNER, Colorado               FRANK PALLONE, Jr., New Jersey
MIKE POMPEO, Kansas                  BOBBY L. RUSH, Illinois
ADAM KINZINGER, Illinois             DIANA DeGETTE, Colorado
BILLY LONG, Missouri                 JIM MATHESON, Utah
RENEE L. ELLMERS, North Carolina     HENRY A. WAXMAN, California, ex 
JOE BARTON, Texas                        officio
FRED UPTON, Michigan, ex officio



                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     2
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     3
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     5

                               Witnesses

Karl Nebbia, Associate Administrator, Office of Spectrum 
  Management, NTIA...............................................     6
    Prepared statement...........................................     9
    Answers to submitted questions...............................    84
Teri Takai, Chief Information Officer, Department of Defense.....    25
    Prepared statement...........................................    27
Dean Brenner, Senior Vice President, Government Affairs, Qualcomm 
  Incorporated...................................................    35
    Prepared statement...........................................    37
Christopher Guttman-McCabe, Executive Vice President, CTIA--The 
  Wireless Association...........................................    42
    Prepared statement...........................................    44
    Answers to submitted questions...............................    89

                           Submitted Material

Paper entitled, ``Industry Roadmap to Assessing the 1755-1850 MHz 
  Band,'' submitted by Mr. Walden................................    76
Letter of May 27, 2013, from the Wi-Fi Alliance to the FCC and 
  the NTIA, submitted by Mr. Latta...............................    82


          EQUIPPING CARRIERS AND AGENCIES IN THE WIRELESS ERA

                              ----------                              


                        THURSDAY, JUNE 27, 2013

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:35 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Greg 
Walden (chairman of the subcommittee) presiding.
    Members present: Representatives Walden, Latta, Shimkus, 
Blackburn, Scalise, Lance, Guthrie, Gardner, Kinzinger, Long, 
Ellmers, Barton, Upton (ex officio), Eshoo, Doyle, Matsui, 
Braley, Lujan, Dingell, Rush, DeGette, Matheson, and Waxman (ex 
officio).
    Staff present: Gary Andres, Staff Director; Ray Baum, 
Senior Policy Advisor/Director of Coalitions; Sean Bonyun, 
Communications Director; Andy Duberstein, Deputy Press 
Secretary; Neil Fried, Chief Counsel, Communications and 
Technology; Kelsey Guyselman, Counsel, Telecom; David Redl, 
Counsel, Telecom; Charlotte Savercool, Executive Assistant, 
Legislative Clerk; Shawn Chang, Democratic Senior Counsel; 
Patrick Donovan, Democratic FCC Detailee; Margaret McCarthy, 
Democratic Staff; Roger Sherman, Democratic Chief Counsel; and 
Kara Van Stralen, Democratic Policy Analyst.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I am going to call to order the Subcommittee on 
Communications and Technology, and our hearing on ``Equipping 
Carriers and Agencies in the Wireless Era.'' I want to thank 
our witnesses for being here this morning as we examine ways to 
ensure our federal agencies and world leading wireless industry 
have the tools they need in the wireless era.
    I am convinced we can upgrade the federal system while 
freeing spectrum, thereby promoting both our Nation's safety 
and our economic well-being. Last year, Congress passed the 
Middle Class Tax Relief and Jobs Creation Act, including the 
commercial incentive auction provisions that were the fruits of 
this subcommittee's bipartisan labor. Such auctions can help 
make spectrum available to meet the growing demand for mobile 
broadband services, provided the FCC gets the auction and band 
plans right. We cannot afford to rest on our laurels, however. 
That is why last Congress Ranking Member Eshoo and I created a 
working group led by Representatives Guthrie and Matsui that 
focused on federal spectrum use. Building on the knowledge 
gained by the working group, today we look at the tools 
available to maintain and even improve federal agencies' 
capabilities while freeing spectrum for commercial use.
    How much would various approaches cost, how much might they 
raise, and how long would it take them to implement? What 
progress is being made today? What steps might Congress, 
agencies, and the private sector take to facilitate the 
process? One way we can create additional spectrum is through 
use of the Commercial Spectrum Enhancement Act. Under CSEA, 
commercial providers bear the cost of moving incumbents to 
clear spectrum. This approach has been successful in the past, 
but is not without limitations.
    Might the principles underlying commercial incentive 
auctions be applicable here? As we look at the budgetary 
pressures facing the country, is there a way to somehow share 
with federal agencies some of the value generated from spectrum 
that they relinquish? Our agencies are facing a shortage of 
funding. The U.S. wireless industry is facing a shortage of 
spectrum. If we work together to harness the strengths and 
assets of our agencies and the private sector, we can meet the 
needs of government, we can advance our leadership in the 
mobile wireless world, and we can create jobs in the process.
    Our bipartisan staff, by the way, has spoken with the FCC 
to express our desire to see a proceeding opened on 1.6 
gigahertz and 1755 to 1780 megahertz bands identified in the 
testimony today. We look forward to expeditious action on these 
bands. The time has come to take action to bring them to 
market.
    I thank the witnesses and look forward to their counsel, 
and with that, I would recognize the vice chair of the 
subcommittee, Mr. Latta, for any comments he might have.
    [The prepared statement of Mr. Walden follows:]

            Prepared statement of the Honorable Greg Walden

    I welcome our witnesses as we examine ways to ensure our 
federal agencies and world-leading wireless industry has the 
tools they need in the wireless era. I'm convinced we can 
upgrade federal systems while freeing spectrum, thereby 
promoting both our nation's safety and economic well-being.
    Last year, Congress passed the Middle Class Tax Relief and 
Job Creation Act, including the commercial incentive auction 
provisions that were the fruits of this subcommittee's labor. 
Such auctions can help make spectrum available to meet the 
growing demand from mobile broadband services, provided the FCC 
gets the auction and band plans right.
    We cannot afford to rest on our laurels, however. That is 
why last Congress Ranking Member Eshoo and I created a working 
group, led by Reps. Guthrie and Matsui that focused on federal 
spectrum use. Building on the knowledge gained by the working 
group, today we look at the tools available to maintain and 
even improve federal agencies capabilities while freeing 
spectrum for commercial use.
    How much would various approaches cost, how much might they 
raise, and how long would they take to implement? What progress 
is being made today? What steps might Congress, agencies, and 
the private sector take to facilitate the process?
    One way we can create additional spectrum opportunities is 
through use of the Commercial Spectrum Enhancement Act. Under 
the CSEA, commercial providers bear the cost of moving federal 
incumbents to clear spectrum. This approach has been successful 
in the past but is not without limitations.
    Might the principles underlying commercial incentive 
auctions be applicable here? As we look at the budgetary 
pressures facing the country, is there a way to somehow share 
with federal agencies some of the value generated from spectrum 
they relinquish? Our agencies are facing a shortage of funding. 
The U.S. wireless industry is facing a shortage of spectrum. If 
we work together to harness the strengths and assets of our 
agencies and the private sector we can meet the needs of 
government, advance our leadership in the mobile wireless 
world, and create jobs in the process. I thank the witnesses 
for their testimony and look forward to their counsel.

                                #  #  #

    Mr. Latta. Well thank you, Mr. Chairman, and I appreciate 
you holding this very important hearing today on federal 
spectrum.
    As we continue to see the demand for mobile broadband 
skyrocket, the Nation's spectrum policy is one area that we 
must get right. The spectrum crunch is an undeniable fact, and 
in order for the United States to continue to lead the wireless 
world, we must get closer to the national broadband plan's goal 
of making 300 megahertz available by 2015.
    Similar to approaching our Nation's energy challenge, we 
must take an all-of-the-above approach to spectrum. This 
includes looking at our vast federal holdings of spectrum and 
discussing solutions for ways to clear that spectrum for 
commercial use, particularly as the chairman said, the 1755 to 
1780 megahertz band.
    I appreciate the witnesses being here today and I look 
forward to hearing from them, and Mr. Chairman, I yield back my 
time to you.
    Mr. Walden. Anyone else on the Republican side seeking the 
last minute and 24 seconds? The vice chair of the full 
committee, Ms. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman. When it comes to 
transparency and efficiency, as you said, this also gets to 
what we are trying to do with spectrum, and I think that when 
we look at the spectrum issue and the FCC, it is time to stop 
studying the issue and start delivering for the American 
people. As one of my constituents said last weekend, they 
wanted to send all of us to the Larry the Cable Guy school of 
politics and ``Git-R Done'' and they are tired of waiting.
    You mentioned the 1755 to 1780 megahertz band for 
commercial use, and also the 2155 to 2180 band. We are pleased 
to see these discussed today. We look forward to our witnesses 
to hearing from you, and we look forward to some action on 
these issues. I yield back.
    Mr. Walden. Gentlelady yields back, and maybe at our next 
telehearing we could have Larry the Cable Guy come.
    With that, I will yield back the remainder of my time and 
recognize the gentlelady from California, Ms. Eshoo, for 5 
minutes.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, and good morning to 
you.
    With the President's call earlier this month for increased 
spectrum sharing, today is a timely continuation of the 
bipartisan examination we began in the last Congress on how to 
relocate or share spectrum held by federal agencies. Leading up 
to the enactment of the Public Safety and Spectrum Act last 
year, Democrats and Republicans on this subcommittee have 
worked hand in hand to ensure federal spectrum bands are used 
more efficiently. Today is another manifestation of that 
cooperation, and with U.S. mobile data traffic expected to 
increase nine-fold between 2012 and 2017, making additional 
spectrum available for mobile broadband must remain a top 
priority for this subcommittee, because it is a top priority 
for the people of our country.
    The President's Council of Advisors on Science and 
Technology, better known as PCAST, highlighted in their 2012 
report that the Federal Government uses about 60 percent of the 
most valuable spectrum located between 225 megahertz and 3.7 
gigahertz, 18 percent of which is used on an exclusive basis. 
That is a lot. The bottom line is that federal agencies have a 
responsibility to ensure efficient use and maximum benefit of 
this scarce resource, just as wireless companies do. Federal 
agencies and the wireless industry have been working together 
to identify ways of relocating or sharing the 1755 to 1850 
megahertz band. We are entering a crucial period when we must 
begin the process of making some of this spectrum available for 
commercial wireless broadband. The economic value of auctioning 
this spectrum cannot be understated, since it will go a long 
way toward providing a down payment for the construction of 
First Net and address our Nation's spectrum crunch.
    It is also important for us to examine the 5 gigahertz 
band. In February, to increase Wi-Fi speeds and alleviate 
congestion, former FCC Chairman Genachowski announced a 
proposal to unleash up to 195 megahertz of spectrum in the 5 
gigahertz band. The consumer benefits of such an expansion in 
unlicensed spectrum include faster data speeds and greater 
capacity that will support high definition video, large file 
transfers, and a new generation of technologies that have yet 
to be invented. I hope that NTIA, DOT, and the FCC will work 
with industry stakeholders on a path forward for connected 
vehicle technology, while recognizing the immediate economic 
and consumer benefits of expanding Wi-Fi in the 5 gigahertz 
band.
    Consumer appetite for wireless broadband will only continue 
to grow, and this is very good news. This is all about 
innovation and growth and jobs and opportunities and exciting 
markets. So I think the time to act is now. We really cannot 
drag our heels on this. So with the conclusion of today's 
hearing, Mr. Chairman, I know that we are going to work 
together and our staffs will work together to develop a plan to 
incent federal agency participation and provide the wireless 
industry with the certainty that they need to deliver fast, 
reliable wireless broadband service to all Americans.
    And Mr. Chairman, I also want you to know that I support 
and will work with you to see that the FCC releases an NPRM on 
the 1755 to 1780 band as well.
    So with that, I yield back.
    Mr. Walden. Gentlelady yields back the balance of her time. 
Anyone else on the Republican side seeking the chairman's 5 
minutes? Any comments? If not, I turn to former chairman of the 
committee, Mr. Waxman, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Chairman Walden, for 
holding this timely hearing on federal spectrum and how it 
might be utilized to serve the needs of both commercial 
wireless carriers and federal spectrum users.
    Under the leadership of the Obama Administration, the 
National Telecommunications Information Administration, and 
other federal agencies, they have identified over 400 megahertz 
of federal spectrum that can be repurposed for commercial 
mobile broadband services on an exclusive or shared basis, 
encompassing both licensed and unlicensed services. This 
comprehensive all-of-the-above approach has already led the 
Federal Communications Commission to initiate two proceedings 
to reallocate nearly 300 megahertz of federal spectrum for 
commercial use.
    I understand that companies like California-based Qualcomm 
are looking for innovative ways to share the spectrum with 
federal users, and I appreciate their willingness to testify 
today, and I welcome back Mr. Brenner. I also want to welcome 
Ms. Takai. I am pleased you are here, and Mr. Nebbia and Mr. 
Guttman-McCabe. You each represent critical parts of the 
cooperative public-private partnership that will be necessary 
to solve the challenges posed by repurposing the 1755 to 1850 
megahertz band, and I look forward to hearing your perspectives 
today.
    Now that the Commerce Spectrum Management Advisory 
Committee is winding down, we are at a crossroads. Federal and 
nonfederal users must agree upon a roadmap to reallocate the 
lowest 25 megahertz of the 1755 to 1850 megahertz band by 
February, 2015. This is a valuable piece of spectrum real 
estate for many reasons, not the least of which is the 
opportunity to pair it with the 2155 to 2180 megahertz band. 
Doing do so would maximize the option value of this spectrum, 
and it would also provide a source of funding for incumbent 
federal users to modernize their equipment and capabilities, 
while generating a substantial down payment for the 
construction of First Net and other priorities in the law we 
passed last year.
    The time to make this all happen is now, and I am hopeful 
that with the right tools and incentives we will be able to 
meet the deadline. The President recognizes the importance of 
this issue as demonstrated by the memorandum he issued earlier 
this month. The initiatives outlined in the memorandum should 
generate ideas and solutions to provide federal users with 
better tools to fulfill their missions, while ensuring our 
Nation's long-term spectrum needs are met. Congress, too, has a 
role to play. I hope to work concurrently on a bipartisan basis 
to explore additional ways to encourage agencies to relinquish 
under-utilized spectrum.
    That completes my statement and I want to yield the balance 
of my time to my California colleague and friend, Ms. Matsui.
    Ms. Matsui. Thank you, Ranking Member Waxman, for yielding 
me time. I would like to thank our witnesses for being here 
today. I would like to applaud NTIA for their leadership during 
the CSMAC process, and I want to commend Teri Takai for her 
strong leadership in her capacity as CIO at the Department of 
Defense.
    There is no doubt that the future of American innovation 
and growth depends on spectrum. Moving forward, we need a sound 
and smart spectrum policy. There is not a one-size-fits-all 
solution. There are opportunities for both clearing and sharing 
spectrum. I applaud the White House for putting forth a 
spectrum roadmap to guide government agencies to be more 
efficient in their spectrum holdings.
    In the short term, there is a need to act swiftly to 
reallocate the 1755 to 1780 megahertz band. The clock continues 
to tick on the AWS-3 spectrum reallocation. Pairing the 1755 to 
1780 band with AWS-3 makes sense, not just for revenue 
purposes, but also for spurring American innovation.
    For the most part, a thorough review of the 1755 band has 
already occurred, and I applaud both industry and government 
stakeholders for working closely together. Now we are at a 
point where we need to make decisions. Given the time crunch we 
are facing on the AWS-3 band, it is not in anyone's interest to 
slow walk the process. The conversation needs to remain focused 
on the 1755 to 1780 band. We should not waste this opportunity 
for our Nation.
    It is also my hope that once the Senate confirms Tom 
Weaver, he and the FCC will begin to move forward with service 
and option rules in consultation with NTIA and DOD on focusing 
on the 1755 band.
    There are some tough decisions ahead. DOD does hold some 
valid concerns that must be addressed, and we should remain 
committed to finding a balance that meets both our national 
security and economic challenges. I look forward to continue 
working in a bipartisan manner moving forward, and I yield back 
the balance of my time.
    Mr. Walden. Gentlelady yields back the balance of her time. 
All time has been consumed. We will now go to our witnesses, 
and we again thank you all for your testimony and for 
participating in this discussion which is so important to our 
country's future.
    We will start with Mr. Karl Nebbia, Associate 
Administrator, Office of Spectrum Management for the NTIA. Mr. 
Nebbia, thank you for being here. We look forward to hearing 
your remarks.

 STATEMENTS OF KARL NEBBIA, ASSOCIATE ADMINISTRATOR, OFFICE OF 
   SPECTRUM MANAGEMENT, NTIA; TERI TAKAI, CHIEF INFORMATION 
   OFFICER, DEPARTMENT OF DEFENSE; DEAN BRENNER, SENIOR VICE 
   PRESIDENT, GOVERNMENT AFFAIRS, QUALCOMM INCORPORATED; AND 
CHRISTOPHER GUTTMAN-MCCABE, EXECUTIVE VICE PRESIDENT, CTIA--THE 
                      WIRELESS ASSOCIATION

                    STATEMENT OF KARL NEBBIA

    Mr. Nebbia. Chairman Walden, Ranking Member Eshoo, and 
members of the subcommittee, thank you for the opportunity to 
testify about the Administration's efforts to meet the Nation's 
spectrum demand. NTIA is the President's advisor on 
telecommunications policy and manager of federal spectrum use, 
and shares your sense of the importance of these issues. I will 
update you today on the progress toward the President's 
spectrum goal and discuss his direction for the future.
    Spectrum enables agencies to perform their missions, 
whether defense, law enforcement, and emergency services, 
transportation safety, science, or weather warning and 
prediction. While agencies make heavy use of cell phones and 
unlicensed devices, their need for government-only capabilities 
continues. Modern commercial wireless operations tend to be 
standardized and responsive to the market's desire for the 
latest capabilities and devices. Federal wireless, however, 
supports diverse missions and technologies, covering 
communications, many types of radars, science, ground, ship, 
aircraft, and satellite systems. These systems must work when 
they are needed and our men and women in uniform, including 
your local National Guard units, must be able to train at home 
before they feel the heat of battle. Furthermore, agencies 
develop systems with budgetary constraints and life cycles of 
20 years or more. The physics of the spectrum beachfront 
supports mobility and small devices. While the beachfront makes 
possible pocket cell phones, it also allows systems to fit in 
the nose of a tactical aircraft, radars to detect at long 
distances, and rapid deployment of tactical systems.
    In light of challenges in repurposing spectrum, NTIA with 
government and industry is pursuing a path to make spectrum 
available faster and at lower cost, relocating federal users 
where feasible and affordable, and sharing spectrum where 
possible. Thus far, NTIA has put into direct discussion up to 
405 megahertz. NTIA brought industry and government together 
under the Commerce Spectrum Management Advisory Committee and 
greatly improved the opportunity for commercial access in the 
1695 to 1710 megahertz band. The FCC then started a rulemaking 
on the 3550 to 3650 band, drawing proposals for small cell 
deployments sharing with government radars. This is another 
band NTIA had put in play. We also evaluated expanding 
unlicensed use, like Wi-Fi, in two portions of the 5 gigahertz 
range. This spectrum holds the potential to improve Wi-Fi 
performance, supporting network offloading and lower cost 
consumer options. Radar systems, some airborne, and foreign 
satellite-based sensors operate in the lower segment. In the 
upper portion, the automotive industry has been developing 
connected vehicle technologies. As auto and Wi-Fi technologies 
use the 802.11 standard, we have encouraged them to work 
together. In any case, the incumbent uses need to be protected.
    To deal with the challenges of repurposing the 1755 to 1850 
megahertz band, NTIA initiated industry and government 
collaboration through the CSMAC. Working groups made up of 
industry and government experts evaluated each type of federal 
system and potential solutions. The discussions have received 
tremendous support from industry and government. Two of the 
four groups have essentially completed their work; two others 
are working to finish by the July 24 CSMAC meeting, but will 
almost certainly lead to some further discussion.
    Though cooperation and data exchange has been 
unprecedented, sharing sensitive information between agencies 
and industry is a challenge. DOD and industry are discussing a 
way forward right now using the idea of trusted agents. In 
March, the FCC notified NTIA that it plans to auction the 1755 
megahertz band as early as September, 2014. To make this a 
success, the FCC and NTIA must provide a plan for the 1780 to 
1850 megahertz band and identify alternative spectrum to which 
the agencies could relocate. We are reviewing approaches, 
including the industry roadmap, to determine the best path. 
While we press ahead on specific bands, the President's June 14 
memo reflects his commitment to improving future spectrum 
access, creating a policy team to support advances in spectrum 
sharing. The team will consider how to give agencies incentives 
to share or relinquish spectrum. NTIA and NIST will establish a 
center of advanced communications to promote stakeholder 
collaboration on sharing technologies. The memo seeks improved 
federal usage information by directing NTIA to develop a plan 
to quantify federal spectrum use and develop and evaluate a 
spectrum monitoring capability. NTIA and the agencies have made 
substantial progress towards the President's goal. We are 
excited by the momentum that CSMAC's progress and the 
Presidential memo bring.
    Thank you for the opportunity to testify this morning.
    [The prepared statement of Mr. Nebbia follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Mr. Walden. Mr. Nebbia, thank you for your testimony.
    We will now turn to the Chief Information Officer for the 
Department of Defense, Ms. Teri Takai. Ms. Takai, thank you for 
being here. We look forward to your comments.

                    STATEMENT OF TERI TAKAI

    Ms. Takai. Thank you. Good morning, Chairman Walden----
    Mr. Walden. You need to turn that microphone on, please. 
Thank you.
    Ms. Takai. There we go. Good morning, Chairman Walden, 
distinguished subcommittee members, and thank you for the 
opportunity to be here this morning to testify before the 
subcommittee regarding the vital importance of scarce radio 
frequency spectrum to the U.S. national defense capabilities, 
the economy, and consumers.
    Spectrum is critical to ensuring that our war fighters and 
mission partners have the critical capabilities they need to 
prepare for and execute their missions, an example of the 
Department's use of unmanned aerial systems (UAS) which require 
spectrum to control air vehicles as well as process volumes of 
critical intelligence surveillance and reconnaissance data, 
which is in support of our missions in military areas of 
operation.
    Our inventory of UAS platforms has increased from 167 in 
2002 to nearly 7,500 in 2010, and that is an example of, again, 
our concern that we need to become better at spectrum to meet 
our needs as well as to meet the needs of the Nation. This has 
resulted in a dramatic increase in our use and training 
requirements, and consequently an increase in demand.
    But within DOD, we also understand that the strength of our 
Nation is rooted in the strength of our economy. In that 
regard, we remain fully committed in support of the national 
economic and security goals of the President's 500 megahertz 
initiative. We continue to work with NTIA, other Administration 
partners, and industry to ensure balanced spectrum repurposing 
decisions that are technically sound and operationally viable. 
We are working closely with the National Telecommunications and 
Information Administration, the FCC, and industry to develop 
viable methods to share information about the systems that 
depend on spectrum in the 1755 to 1850 band. Some of the key 
systems in that space include our satellite launch and on-orbit 
control operations, electronic warfare, air combat training, 
and many other systems that are the ones that we are focused on 
in the discussion.
    We recently met with NTIA and industry representatives. We 
have agreed on an approach to share information. We have signed 
our nondisclosure agreements that are important not only to 
protect DOD, but also to ensure that our industry partners who 
are participating with us are protected in the future as it 
relates to their activities and future procurements with DOD.
    So in summary, our ability to operate spectrum dependent 
national security capabilities without causing and receiving 
harmful interference is a part of our role in meeting the 
critical needs of our Nation's economy, as well as national 
security. We recognize the growing importance and the need for 
spectrum for economic development, technology innovation, and 
consumer demand. Any repurposing decisions must include 
decisions on comparable spectrum where necessary, adequate 
implementation funding, and adequate time to execute the 
transition, as well as very important rulemaking as it relates 
to how we will share and what the ground rules will be around 
sharing.
    We realize that no spectrum repurposing decision is without 
risk, but we believe those risks can be managed and must be 
managed for us to move together. We believe that we do need to 
move forward quickly. We do need to make decisions in terms of 
the 1755 to 1850, but also do that in the context of our 
overall plan for spectrum going into the future. We believe 
those long-term solutions will achieve a balance between 
national security spectrum requirements and meeting the 
expanding demand of commercial broadband services.
    Thank you.

    [The prepared statement of Ms. Takai follows:]

    [GRAPHIC] [TIFF OMITTED] 
    
    Mr. Walden. Thank you, Ms. Takai. We appreciate your 
testimony.
    We will go now to Mr. Dean Brenner, the Senior Vice 
President, Government Affairs, for Qualcomm Incorporated. 
Thanks for your testimony. We look forward to hearing your 
comments here.

                   STATEMENT OF DEAN BRENNER

    Mr. Brenner. Good morning, Chairman Walden, Ranking Member 
Eshoo, and members of the subcommittee. I am proud to begin by 
saying that Qualcomm, an American company, is the world's 
largest licenser of technology and the world's largest 
manufacturer of chips for wireless devices. Our chips support 
licensed technologies, 2G, 3G, and 4G, unlicensed Wi-Fi, 
Bluetooth, and NFC, and GPS. Our chips support as many 
frequency bands as possible, because there are now 
approximately 40 bands worldwide for LTE alone.
    We strive to develop new technologies, add them into our 
chips, and support every new band, as quickly as possible. We 
work with virtually every wireless carrier and manufacturer in 
the world.
    We base our views on spectrum policy on technical 
feasibility and implementation. When we think about a new band, 
we always ask what technology is technically best suited for 
it, and what policies will enable the industry to start using 
it rapidly and broadly.
    Every day, we deal with the enormous growth of wireless 
usage, and that is why we deeply appreciate the subcommittee's 
efforts to enact the Middle Class Tax Relief and Job Creation 
Act of 2012. In our view, the subcommittee got it right, and to 
help ease the spectrum crunch, it is crucial that the FCC 
successfully implement the voluntary incentive auction 
authorized in the Act.
    Qualcomm's goal is to meet what we call the ``1000x 
Challenge'' to expand wireless capacity by 1,000 times. 
Wireless data usage is doubling each year, and if that trend 
continues, in 10 years, the usage will be 1,000 times today's. 
Qualcomm, the industry, and policymakers must work together on 
many fronts, in parallel, to meet the 1000x Challenge. The 
combination of massive research and development, extensive 
deployment of new small cells, and allocation of far more 
spectrum provides a good path to meet the 1000x Challenge.
    Let me start with R&D. Last year, Qualcomm spent almost $4 
billion, or over 20 percent of our revenues, on R&D, including 
many initiatives to help meet the 1000x Challenge, such as 
carrier aggregation and supplemental downlink to bond together 
separate bands for more capacity and faster data speeds for 
consumers; LTE broadcast for multi-casting of video and data in 
places where people want to see the same content; LTE direct to 
allow first responders and others to communicate device-to-
device even if the cell network is down; 802.11ac and ad for 
faster Wi-Fi and unlicensed; DSRC, which enables cars to 
communicate with one another and with infrastructure to avoid 
collisions; and a next-generation system to provide broadband 
for airplane passengers.
    In addition, creating 1000x more capacity will require 
locating cellular base stations much closer to devices. I am 
not talking about putting cell towers closer to people's homes; 
I am talking about integrating licensed small cells into 
networks, cells as small as the one I am holding in my hand. 
This cell, with one of our chips inside, has the connectivity 
of a base station, but at much lower power. You can put it 
indoors, where so much wireless traffic originates. Software 
will integrate it into a wireless network to create what we 
call a hetnet, a heterogeneous network with cells of different 
sizes.
    The third prong to meet the 1000x Challenge is, of course, 
your focus today: spectrum. We need more spectrum, far more 
spectrum. We need more clear, exclusive use licensed spectrum, 
such as the new 600 megahertz band from the voluntary incentive 
auction. Clearing new bands by a date certain in a reasonable 
time, and auctioning them for exclusive use, is, of course, the 
industry's top priority. For unlicensed, wide contiguous bands, 
adjacent to an existing unlicensed band, such as the 5.4 
gigahertz band that the 2012 legislation directed NTIA and the 
FCC to consider for sharing, is ideal. Other government bands 
are equally important but do not fall easily into the two 
categories I just mentioned. We support the President's 
memorandum that seeks to enable the exchange of information and 
resolve the other practical issues that have hamstrung efforts 
to free up 1755 to 1780 megahertz. We look forward to working 
with the new Spectrum Policy Team created by the memorandum.
    We are also focused on other government bands that are not 
used coast-to-coast on a 24/7 basis, but will not become clear 
in a reasonable time, such as 3.5 gigahertz. 3.5 gigahertz 
would be ideal for licensed small cells like this one, 
operating at low power and minimizing any impact on government 
operations. A small cell can operate at 3.5 because its signal 
need not travel far, but it requires licensed spectrum to avoid 
interference. We are working very constructively with NTIA and 
the FCC on this band.
    Qualcomm, Nokia Siemens, and others have proposed what we 
call Authorized Shared Access, or ASA, to enable commercial use 
of a band such as 3.5 gigahertz when and where it is not used 
by the government. ASA is binary, either an operator or the 
government would use the spectrum at any given time and 
location. A database would ensure that government operations 
are fully protected from interference and when the operator 
uses the spectrum, it can provide a predictable quality of 
service. ASA can provide access to bands that would otherwise 
be unavailable for many years, without requiring any new 
technology for devices or networks.
    Thank you, and I look forward to answering your questions.

    [The prepared statement of Mr. Brenner follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Mr. Walden. Mr. Brenner, thank you for your testimony.
    And now our final witness this morning, Mr. Christopher 
Guttman-McCabe, the Executive Vice President, CTIA--The 
Wireless Association. Sir, please go ahead with your testimony.

            STATEMENT OF CHRISTOPHER GUTTMAN-MCCABE

    Mr. Guttman-McCabe. Yes. Good morning. Thank you, Chairman 
Walden, Ranking Member Eshoo, and members of the subcommittee. 
I appreciate the opportunity to participate in today's hearing. 
CTIA hopes this hearing will lead to a recognition that a well-
planned, properly executed reallocation of federal spectrum can 
produce results that benefit the government, the wireless 
industry, the United States' economy, and the American public.
    As I have noted in previous hearings, America's wireless 
sector is facing unprecedented demand for wireless broadband 
capability. The demand curve we are facing requires that the 
wireless industry have access to additional licensed spectrum.
    Fortunately, Congress recognized this when it passed the 
Spectrum Act and authorized incentive auctions that should 
result in the conversion of some television broadcast spectrum 
for wireless broadband use. The FCC is moving to implement that 
legislation and it is vitally important that the process move 
forward expeditiously. But even if the incentive auction yields 
the 120 megahertz called for in the National Broadband Plan, 
that and other bands identified for auction by last year's 
legislation will only provide a portion of what is needed for 
the industry to meet consumers' and businesses' need for 
wireless broadband.
    Additionally, absent an aggressive effort to make 
additional spectrum available, the leadership role that the 
U.S. has long enjoyed could be put at risk. Many of our trading 
partners have recently brought or are in the process of 
bringing substantial amounts of spectrum to market for 
commercial use. The United States must keep pace, but under the 
most optimistic scenario, the auctions flowing from last year's 
legislation still will leave us short of these international 
efforts and fail to achieve the Broadband Plan's call for 
making 300 megahertz available for mobile flexible use by 2015.
    To cover the shortfall Congress should, with leadership 
from this subcommittee, as has been the case countless times in 
the past, look to repurpose bands held by federal users. 
Clearing federal users from some of the bands they currently 
occupy will help the commercial sector gain access to the 
spectrum it needs while providing a critical infusion of funds 
to facilitate the federal users' movement to state-of-the-art 
equipment. This will reduce ongoing maintenance and procurement 
costs and free up limited financial resources that are 
increasingly strained by the budget caps imposed under the 
Budget Control Act.
    The most logical frequency band to start with as we look to 
repurpose federal spectrum is the block between 1755 and 1780 
megahertz. That band is immediately adjacent to existing 
commercial spectrum and it will fit seamlessly into the current 
mobile broadband spectrum portfolio. It will allow for rapid 
and efficient equipment development and facilitate a more cost-
effective migration of mobile broadband technologies into that 
band. Additionally, because most developed countries, including 
17 of the 20 members of the G-20, either use or have allocated 
the 1755 to 1780 band for commercial use, there are significant 
economies of scale and scope that favor commercialization of 
this band. Recognizing that most of the developed world has 
already made the decision to use this band for commercial 
service, CTIA believes that the United States should follow the 
course charted by our trading partners. To CTIA, the right 
choice is clear. We have been studying this band for well over 
3 years. It is time for decisive action on the part of our 
federal partners.
    Near-term action by NTIA will allow the 1755 band to be 
paired with spectrum currently available for licensing at 2155 
to 2180 megahertz. Current law requires that 2155 band to be 
licensed by February, 2015, and it is our hope that the 1755 
band will be made available so that the two bands can be 
auctioned together. Pairing these bands will maximize their 
value not only to industry, but also to the government. A study 
by the Brattle Group found that auctioning the 2155 band by 
itself would yield just $3.6 billion, but when paired with the 
1755 and auctioned together, they could generate as much as $15 
billion. Given the budget realities facing the country, a 
difference of that magnitude should not be ignored. With 
support from this committee and the rest of Congress, as well 
as the White House, NTIA can move quickly to capture the 
benefits of pairing these two bands.
    As an indication of our focus on this band, we have 
proposed a relocation roadmap that identifies alternative bands 
to which services currently operating in the 1755 to 1780 band 
could be relocated at a cost more than covered by auction 
revenue. This can happen in a way that improves their equipment 
and maintains and protects federal users' ability to execute 
their missions while alleviating risks to taxpayers and 
limiting dependence on an unpredictable and strained 
appropriation process.
    We live in a wireless world. Every day we all see signs 
that our lives and our economy are tied directly to this 
amazing industry. We are willing to work in a collaborative and 
constructive manner, but we need your help to ensure that the 
process actually moves forward. We look forward to engaging 
with this subcommittee and with the teams at NTIA and DOD. 
Thank you again for the opportunity to participate in today's 
hearing. I look forward to your questions.
    [The prepared statement of Mr. Guttman-McCabe follows:]

    [GRAPHIC] [TIFF OMITTED] 

    Mr. Walden. Thank you, Mr. Guttman-McCabe. We share your 
concern about moving along and getting this done in a timely 
manner.
    Ms. Takai, the Department continues to be critical of part 
of the spectrum--a critical part, I am sorry, of the spectrum 
debate. Let me be clear, we all believe that DOD's mission 
critical systems must be maintained and that operational 
readiness must be improved through this process. What special 
and specific challenges have hampered the Department's ability 
to improve its systems, and how can we help DOD clear or 
relocate existing systems without impacting their readiness? So 
what are the specific challenges that you face?
    Ms. Takai. Well, I think if we talk to the specific 
challenges in terms of the systems that we have and then speak 
to the challenges of moving, I think the challenges that we 
have in terms of our specific systems is that today, what we 
focused on is because we have the availability of those systems 
to support our training needs, we have not necessarily been 
able to put the dollars into putting new innovative 
technologies into those systems in order to do some of these 
things. The second piece of it is that as some of the spectrum 
sharing capabilities are being developed, some of the new 
technologies, we have to look at how we introduce those into 
those capabilities and how long that would take.
    So for instance, just to give you probably the most 
difficult example, is really our air combat training system, 
which is used in all of our planes and is really used in all of 
our UASs. The challenge for us is that all of our training is 
done in the U.S., and so our ability to actually, first of all, 
use that system and be able to compress into the higher band, 
moving to the 1780 to 1850, causes us interference problems 
because we would run multiple missions in a smaller amount of 
spectrum. So that is just one example probably of the most 
difficult system.
    We have looked at some of the systems that are exclusive 
and we would have some opportunity to move, so I don't want to 
give the impression that all of our systems are challenged in 
that way, but the one I think that is the most problematic, the 
specific example is that it would, in fact, give us 
interference issues. It would limit the number of training 
missions that we could fly at the same time, and therefore 
reduce the number of training hours, which again are necessary 
for pilot certification prior to being able to deploy.
    Mr. Walden. I am curious, to Mr. Guttman-McCabe, what does 
your roadmap say about the combat training system and pilot 
training?
    Mr. Guttman-McCabe. Yes, thank you, Mr. Chairman. So just 
to take maybe a half-step back, the roadmap was put in place to 
address specifically the concerns about the lack of information 
that was flowing, so what we did is we actually went back to 
NTIA's assessment of several years ago, and we identified bands 
that NTIA had identified for possible reallocation and 
repurposing of these existing services. And what we found is 
that it looks--at least, it should be studied and if we are 
wrong, we should get some feedback, but it looks like each of 
these services have a band that they could go into, a band that 
already is a government-utilized band. And so, there is no one 
in this room who wants to negatively impact our war fighters' 
ability to prosecute their jobs, but I think there needs to be 
a balance and what we are looking for is that balance. We have 
put a roadmap on the table. I think it is something, at least a 
starting point that DOD could work from and Ms. Takai and her 
team could look at, but it is bands that they have identified. 
I mean, we didn't pull this and create this from whole cloth.
    Mr. Walden. So Ms. Takai, bands you have identified several 
years ago could be used? Is that--do you and Mr. Nebbia want to 
comment on that?
    Ms. Takai. Yes. First of all, Mr. Chairman, I certainly 
don't want to imply that we aren't willing to work on moving 
and work on what the relocation would be. We have seen some of 
the results of the roadmap. We have not seen the full roadmap. 
My understanding is that is being released to us, and we are 
very willing to take a look at the recommendations that are in 
that roadmap and look to see where there are options and where 
there are areas that perhaps we have not studied adequately or 
where there may be opportunities for us to make the move that 
is suggested in that analysis.
    Mr. Walden. OK.
    Ms. Takai. We have been working on some of those areas in 
the CSMAC process, but I don't know that we have seen the 
complete one.
    Mr. Walden. So Mr. Guttman-McCabe, can you get her the 
complete roadmap, or have you done that?
    Mr. Guttman-McCabe. Absolutely. We submitted it formally to 
the CSMAC process and it has been filed at the FCC as well, and 
I think Dean has one in his right hand.
    Mr. Brenner. Here it is.
    Mr. Guttman-McCabe. Yes.
    Mr. Walden. All right. This is great. We are all getting 
along. This is wonderful. We have made progress right there.
    My time--before I yield to my friend from California, just 
know that we are serious about trying to compress this timeline 
and get the answers, because it has been a number of years. And 
I also respect this is complicated stuff you have to get right, 
but I think I see a real bipartisan approach here to on a 
regular basis have some discussions and get some updates. We 
want to move this along. We want to move this along.
    So I will turn now to the ranking member of the 
subcommittee, Ms. Eshoo, for 5.
    Ms. Eshoo. Thank you, Mr. Chairman. Just in that exchange, 
maybe 6 months were saved, so maybe we should just keep having 
more----
    Mr. Brenner. Happy to be of service.
    Ms. Eshoo [continuing]. Hearings. So thank you very much to 
each one of you for your testimony.
    I can't help but think--this is just a general observation 
that federal agencies obviously need to have incentives in 
order to do this, and we can't just view this--or they can't--
agencies can't just view this as a loss. You have to think of 
it as a win as well, and how we bring about the win is 
obviously what we want to zero in on.
    But I have to say that the same old, same old that has 
prevailed for years simply is not going to be accepted around 
here. It just can't be. So this is as serious as it gets, and 
we really want to see some movement and some action in the 
right places with all the right things surrounding it.
    So to Ms. Takai first. To date, DOD has not answered or 
directly answered what it would cost to reallocate the 25 
megahertz of spectrum between 1755 and 1780, so I am going to 
ask about it again. Do you have a cost estimate and if not, 
when can you get one?
    Ms. Takai. Yes, ma'am, we have not done a cost estimate for 
only the 1755 to 1780 band in terms of the next steps on it, 
and the reasons for not doing it is, number one, what we are 
looking for is some direction in terms of what is going to 
happen as it relates to is this going to be a two-stage auction 
where it would be the 1755 to 1780 and the second would be 
the----
    Ms. Eshoo. Well, how can that be kind of short-circuited to 
get an answer from you?
    Ms. Takai. Well, I think I would need to turn to my 
colleague at NTIA, because generally the direction in terms of 
the agencies to be able to put those estimates together would 
come out to all of the agencies.
    Ms. Eshoo. But do you sit down and talk to each so that--if 
you have a commitment to reallocate and there needs to be a 
cost estimate, why wouldn't the two of you sit down and talk 
about it? Why are we--why am I even having to ask this question 
again? Maybe Ms. Takai first and then maybe NTIA? I don't want 
to use all my time on this, but this is frustrating.
    Ms. Takai. Sure. Right, and first of all, I think I didn't 
mean to give the impression that we don't sit and talk about it 
a lot. We have put----
    Ms. Eshoo. Well, that is a Washington meeting, with all due 
respect.
    Ms. Takai. Well----
    Ms. Eshoo. You have to have an outcome. We have meetings so 
that something comes out of it and we get something done.
    Ms. Takai. Yes, ma'am. The challenge, I think, is that as 
we have met, in order for us to do an estimate of what it would 
take to move out of the 1755 to 1850, we need to understand 
where we would either relocate to or what the requirement would 
be in terms of where to move.
    Ms. Eshoo. When do you think you will get this done?
    Ms. Takai. Until we get an estimate or until we get 
direction in terms of are we going to be asked to compress into 
1850--1780 to 1850-- will we have the opportunity for either 
exclusive comparable spectrum or shared comparable spectrum----
    Ms. Eshoo. OK.
    Ms. Takai [continuing]. And until we have some idea of 
where, in fact, we can go and effectively either move to or 
share----
    Ms. Eshoo. I think I have got the picture.
    Ms. Takai. I can't really give you an estimate.
    Ms. Eshoo. Yes. It hasn't changed.
    Mr. Brenner, thank you for being willing to testify today. 
In your testimony, you talk about the benefits of connected 
vehicle technology as well as Qualcomm's work to deliver faster 
Wi-Fi and other unlicensed applications in the 5 gigahertz 
band. Is this an either/or scenario, or through spectrum 
sharing can we successfully achieve both goals?
    Mr. Brenner. I think we can successfully achieve both 
goals.
    Ms. Eshoo. Nice soft setup.
    Mr. Brenner. Thank you, I appreciate it. We can achieve 
both goals and it is crucial that we do, and let me explain why 
I say that. So at Qualcomm, we have been working on DSRC for 
years. Alistair Inquist, my colleague and I who is here with 
me, we attended the meeting at the FCC in 2003 in which they 
authorized the rules for DSRC. DSRC is ready, can be 
implemented.
    Ms. Eshoo. So that is a decade ago.
    Mr. Brenner. Right. It is time to get DSRC going, and what 
we don't want is a spectrum proceeding at the FCC that, as you 
know, can go on for years to delay DSRC. So here is what we 
said at Qualcomm. We looked at the spectrum map, and if you--a 
faster variant of Wi-Fi that we are launching, 802.11AC, it 
operates in channels of 40 megahertz, 80 megahertz, or 160 
megahertz. But when you do the math, the last 30 megahertz of 
the DSRC spectrum, that is 5895 to 5925, is of no use for Wi-
Fi. It will never be used for Wi-Fi. It is not a multiple of 
40, 80, or 160. So what we propose to the FCC is let's take 
that off the table for sharing. Let's put DSRC safety 
applications into that clear 30 megahertz exclusive use. And by 
the way, the chips that we are making for DSRC and which are 
used in the testing that has gone on, they only use 10 
megahertz. So the 30 that is available would be ample for the 
DSRC safety applications that are ready to go. So what we said 
is put DSRC exclusively in that 30, and then we can talk about 
how do to sharing in the other 45.
    Ms. Eshoo. Good, thank you.
    Mr. Brenner. And we have some ideas about how to do that.
    Ms. Eshoo. Great. Mr. Chairman, I don't know if we are 
going to have another round, but if we do, I have some 
additional questions. So thank you, and thanks again to the 
witnesses.
    Mr. Walden. Turn now to the vice chair of the subcommittee, 
Mr. Latta, for 5 minutes.
    Mr. Latta. Well thank you very much, Mr. Chairman, and 
again, thank you very much to our witnesses for being here.
    Mr. Brenner, if I could just go to your testimony, because 
it is very interesting when you are talking about the 1,000 
times challenge. We have had a lot of hearings and we have had 
individuals in here that have testified that by the year 2017, 
it is estimated that there will be 1.4 mobile devices per 
capita across the entire world. And we know that is not going 
to happen across the entire world, but it is really going to 
explode here in the United States. And you go on in your 
testimony talking about, again, the cellular base stations, and 
it really comes down to your last statement is that we have to 
have more spectrum to meet these needs. I would like you just 
to kind of walk me through this a little bit, because you are 
talking in your testimony about that 1,000 times, and that we 
are doubling the wireless data, doubling it each year, and that 
is where you are talking about being at least 1,000 times 
today. Just give me a picture of what things are going to look 
like in, let's say, 10 years, what we are going to be seeing 
that people are going to be having in their hand, what they are 
going to be utilizing them for, because again, if you are 
talking about just doubling and getting up 1,000 times, where 
we are going to be?
    Mr. Brenner. Thank you, Congressman Latta. Let me answer 
that question with all dehumility, because I have to say that 
all the predictions about wireless broadband usage have always 
been wrong, and they have always been wrong because they have 
been too low. In fact, when Qualcomm developed the 1000x goal 
and actually if you say to any Qualcomm employee 1000x, we know 
as a company that is our goal. We originally had a goal that 
was much less than that, and we actually shared it with some of 
the operators, both in the United States and around the world, 
and they said you know what, Qualcomm, you are not thinking big 
enough. It is faster, it is bigger. So we went back to the 
drawing board and we came up with the goal of 1000x.
    So you know, what is it going to be like? I think that 
there will be these small cells everywhere because again, think 
of the fact that in Washington, D.C., all the best places to 
put one of the big towers, there is already a big cellular 
tower there. So in the----
    Mr. Latta. For me, just to interrupt here. How many of 
those small cells do you think you are going to envision, let's 
just say, in 5 years?
    Mr. Brenner. So actually, the studies that we have done, we 
could envision in a neighborhood there being--and by the way, 
they are in this form factor for now, but we think they could 
go right into a cable box or your set top box could be a little 
down goal. It doesn't necessarily even have to be this big, but 
we could envision in neighborhoods 10, 20 percent of the 
neighborhood very quickly getting these small cells installed, 
and then what is exciting is although they will be placed 
indoors, they will provide also good coverage outdoors where 
again, there is tremendous extensity of use.
    So in terms of what the vision is like, I think you would 
walk into this room and the lights would have some form of 
connectivity. I think that your phone would be on and it would 
tell you whether there is any constituent from your district 
that is in the building and who they are. I think that----
    Mr. Guttman-McCabe. With proper privacy protection.
    Mr. Brenner. Right, right. Thank you, Chris.
    Mr. Guttman-McCabe. Yes.
    Mr. Brenner. And I think that, the history is that once 
people get these devices they want to use them all the time 
wherever they go, and I think that is only going to multiply.
    Mr. Latta. Let me follow up with another question, and that 
would be what do different types of spectrum sharing due to 
potential spectrum evaluations at auction?
    Mr. Brenner. That is a great question. So let me say that 
the reason why the authorized shared access model that Qualcomm 
proposed that I mentioned in our testimony is important is 
because if you are going to get access to spectrum for a 
cellular type application--I am not talking about Wi-Fi, Wi-Fi 
doesn't work, I can use someone else's Wi-Fi or whatever. You 
need to depend on it. You need a predictable quality of 
service. So you have got to be able to know that once you are 
on the spectrum, you will have it unless and until you can't, 
and then when you can't, you need to know that you can go onto 
another band that is available.
    So if the spectrum is just a free-for-all, a wild, wild 
west, there will be almost no value to it. If the spectrum is 
auctioned in a way that there is a predictable quality of 
service, then I think the market can take into account the fact 
that it may not be available 24/7, but it will still have 
considerable value.
    Mr. Latta. Thank you. Mr. Guttman-McCabe, did you want to 
make a comment on that?
    Mr. Guttman-McCabe. I did, and I think what we are seeing 
around the world is the delivery of a large box of cleared 
spectrum, and what we want to make sure is that the United 
States doesn't become the anomaly for bad reasons. Right now we 
are sort of the anomaly because we have LTE deployment and next 
generation technologies that no one else has. We are the test 
bed for the rest of the world. We don't want to be the last to 
receive equipment because we are the only ones that are 
delivering a range of overly shared spectrum products that 
don't allow carriers to really invest, to have a comfort level 
that they are going to get some return on their investment and 
actually be able to deliver.
    So the product that Dean is talking about is one that 
people are getting a level of comfort with, but I think in 
other instances we are talking about cognitive technologies 
that I think people don't--they don't exist, at least don't 
exist commercially, and as we looked at this specific band that 
we are talking about, there are four uses in the band that the 
working groups have said can't be shared. And so we are talking 
about sharing in a band where the conclusion has already been 
reached that we can't share with those technologies. And so I 
am perplexed at times that we continue to prosecute this notion 
of sharing in this band when the subject matter experts, 
including those from the Department of Defense, have said you 
can't share with the unmanned area vehicles. You can't share 
with air combat training. You can't share--you can go down 
system, system, system, and we continue to investigate sharing. 
And now we are having a debate whether we can investigate a 
sub-band. My father used to say--I brought this up the other 
day. My father used to say you measure twice, you cut once. I 
was a little bit of a spastic child and I always wanted to cut 
and I always got myself in trouble. We have been measuring this 
band for 4 years. It is time to cut.
    Mr. Latta. Thank you very much, and Mr. Chairman, I see my 
time is expired and I yield back.
    Mr. Walden. Gentleman yields back. Chair now recognizes the 
gentleman from California, Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman. I want to 
yield to the chairman of the full committee, Mr. Upton, to have 
a colloquy.
    Mr. Upton. Thank you, my friend. We want to engage in a 
colloquy and say a couple things here.
    First of all, spectrum is quickly becoming the lifeblood of 
our economy, as commerce, entertainment, and the government go 
wireless. At the same time, our supply of readily usable 
spectrum is certainly dwindling, and finding better ways to 
manage the spectrum and meet increasing demand is now certainly 
a matter of economic and national security for our country. 
That is why we are having the hearing today and that is why we 
have been discussing federal spectrum use for the better parts 
of this Congress and the last.
    I have talked with Ranking Member Waxman. We are both 
concerned that we are not making progress fast enough, and so 
therefore, the two of us, we have agreed on a bipartisan basis 
to ask Chairman Walden and Ranking Member Eshoo to convene 
monthly meetings with the NTIA, FCC, and DOD to make sure that 
we tackle the issues both responsibly and expeditiously.
    And I yield back to Mr. Waxman.
    Mr. Waxman. Thank you very much. I think that this 
bipartisan process can help us move forward. We have a limited 
time to act. It is imperative we push forward to make sure we 
are maximizing the use of the federal spectrum. We know that 
the agency professionals involved in this process are acting in 
good faith. They want what is best for the public interest. But 
if this hearing is any indication, Mr. Chairman, we are not 
making progress fast enough. The agencies seem to be pointing 
fingers at each other in justifying why they are not acting in 
accordance with the President's directives to free up the 
federal spectrum.
    I believe that there is more than enough federal spectrum 
to take care of the spectrum needs of our armed forces, provide 
additional spectrum for commercial broadband, and raise 
additional revenues for priorities like First Net. We need to 
make sure that this effort is not slowed because agencies are 
talking past each other or because of bureaucratic inertia, 
which happens, and the stakes are too high.
    So that is why Chairman Upton and I have agreed that the 
committee will hold these monthly meetings with the key 
officials at NTIA, FCC, and DOD to assess progress. I am 
especially pleased we have agreed to pursue this effort in a 
bipartisan manner. This is a good example of an area where we 
can work together towards a common goal, and I look forward to 
engaging with our colleagues on the other side of the aisle. 
And I know that this effort is in good hands under the 
leadership of Chairman Walden and Ranking Member Eshoo.
    Thank you, Mr. Chairman. I will yield back my time.
    Mr. Walden. Gentleman yields back. We appreciate your 
confidence in us, and we look forward to working with the 
agencies on a regular basis, as you heard, on a monthly basis, 
to stay on top of this and move forward.
    We will now turn to the gentleman from Illinois, Mr. 
Shimkus, if he is--wants to go for 5 minutes, would be up next.
    Mr. Shimkus. Thank you, Mr. Chairman. This is a good segue, 
because let me move with Mr. Guttman-McCabe. You know, when we 
were talking broadband, we really pushed for a broadband 
inventory, and although some stuff came out fast, we started 
deploying stuff before we knew who had what and where it was 
and at what speeds and the like. So there are folks who are 
talking about a spectrum inventory, and I would encourage you 
all as you start these meetings to talk about it.
    Mr. Guttman-McCabe, what would--talk to me about doing a 
spectrum inventory and how that would be beneficial.
    Mr. Guttman-McCabe. Sure. Thank you, Congressman, and I 
absolutely think it would be beneficial. I hope that it is used 
as a tool to move the process forward in an accelerated manner. 
You know, we often talk to the broadcasters and they say there 
should be an inventory before they are forced to move forward 
with the incentive auction process, and I say but we know where 
the broadcasters are, where they operate, and where their 
stations are. I hope it wouldn't be used as a tool to slow down 
the 1755 to 1780 because we have spent several years looking at 
what is in those bands. But I think as a whole, as sort of a 
holistic tool, it would be fantastic for us to get a sense of 
who is where. I, too, have seen the statistics that suggest 
that 60 percent of the beachfront spectrum is at least 
operationally used by the Federal Government, and so I think it 
would be good to get those exact numbers and get a sense of who 
is where and for what is it being used.
    Mr. Shimkus. Mr. Brenner, I would hope that you would 
concur with that?
    Mr. Brenner. Oh, absolutely. Of course, Congressman 
Shimkus, as you can imagine, on a regular basis I am in contact 
with our folks who design chips to look at new bands and to try 
and predict what is going to happen.
    Mr. Shimkus. So it might even be important for you to know 
what is available?
    Mr. Brenner. It is very important, right.
    Mr. Walden. Would the gentleman yield?
    Mr. Shimkus. I would yield.
    Mr. Walden. I also think it would be interesting to know 
who has got it, is it is use, you know, how much is sitting out 
there. I realize there are licensed timelines where you have so 
many years to----
    Mr. Shimkus. Reclaim my time. That is what we tried to do 
last year in the Spectrum Working Group, and even though we got 
some briefings, I don't think we walked away with a lot of 
comfort that we actually knew the actual spectrum holdings, and 
really, the more important question is actual use. And then if 
there is actual use, by what technology? Because actual use 
with old technology is really having more than you need 
currently. You know, the folks who know me, I do have a pretty 
solid military background in defense and security issues, and--
but I will tell you that unless we know, we have a difficulty 
trusting that the Federal Government--that they may be holding 
on to assets that with new technology they might not need, and 
we could help grow this economy. So I think that is part of a 
bipartisan concern that we have out here.
    And let me just segue with--because you mentioned the 1755 
to 1780. I want to expand that out to the 1850. Ms. Takai and 
Mr. Nebbia, your testimony talked about the technical 
challenges in that area, right? My question is, this really 
segues into this a little bit. How old is that technology that 
is giving you technical difficulties? How old is that 
technology that is consuming that spectrum in that arena right 
now? Do you know?
    Mr. Nebbia. Certainly can't say for sure in every system. 
Certainly the Act system has some components that are very old. 
I might guess probably 20 years. Some of the law enforcement 
surveillance systems have been there for a long time also, once 
again, working within the budget limitations that they have 
deployed those systems.
    Mr. Shimkus. Let me ask Ms. Takai. Do you know?
    Ms. Takai. Yes, sir, let me just first say those systems 
and the systems that are in both the 1755 to 1780 and 1780 to 
1850 can be either moved or in some instances, we have 
identified opportunities for sharing. So I don't want to leave 
the impression that there is a problem with those systems or 
that those systems would not operate in other bands or under 
other conditions.
    Mr. Shimkus. And that might be a technology debate that we 
are talking about that new technology might allow you to do the 
same thing in a different part of the spectrum, is that 
correct?
    Ms. Takai. Yes, sir, but in addition to that, the 
technologies that we have today can operate--and it depends 
upon the particular system, either, again, in a shared mode or 
relocated to another band. We can do that with the technologies 
that we have today. The challenge is to know where, in fact, we 
would move to and what the conditions would be, and then we are 
prepared--and when we did the 1755 to 1850 plan, we had a plan 
there developed with the costs associated to make the move. So 
I wouldn't want to leave the impression that we are dependent 
upon new technology in order to do that.
    Mr. Shimkus. And my time is expired, but I think we are 
pretty much on record, too, that the bona fide cost of 
transition will be borne by the selling of some spectrum, but 
not a gross premium.
    Mr. Walden. First you have to have the spectrum to sell.
    Mr. Shimkus. First you got to have it to sell.
    Mr. Walden. And then I think it can be a real--we are about 
trying to help find a way to fund upgrades and enhance systems 
that are more efficient and can benefit protection of our 
country as we also do the jobs.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Mr. Walden. Thank you. Turn now to chairman emeritus of the 
committee, the gentleman from Michigan, Mr. Dingell, for 5 
minutes.
    Mr. Dingell. Mr. Chairman, I commend you for this hearing, 
and thank you for doing it. It is very important. I think the 
statement made that we are going to be inquiring into this 
monthly is a good one, and I am very pleased to hear it.
    I have my troubles with the way we are allocating spectrum. 
For years, we had it all being sat carefully on by the 
government, like a duck on an egg, and we couldn't get anybody 
off to see to it the spectrum was made available. When we 
finally did, it appeared that the matter was driven by money 
and that this was--that the spectrum was licensed out in ways 
that was going to generate the maximum amount of revenue. It 
turns out it was rather sloppily and slovenly done, so I don't 
think we gathered the maximum of revenue. I am hopeful we can 
avoid some of those things and stay within the good sense of 
wise use and proper allocation of the spectrum.
    Now I note that the U.S. auto industry has made substantial 
investments in developing intelligent transportation systems 
that use the upper 5 gigahertz of band. At the same time, 
Section 6406 of the Spectrum Act directs NTIA to study risks 
associated with permitting unlicensed use in the 5 gigahertz 
band. Wireless, as we have witnessed, is a significant driver 
of economic and technological growth. I want to ensure that 
Americans driver safer vehicles and that they enjoy the benefit 
of wireless growth at the same time. Consequently, we need to 
have a clear understanding of how these two matters affect one 
another.
    Mr. Nebbia, these questions are going to be to you mostly, 
and will require a yes or no answer. Is NTIA helping facilitate 
direct interaction and cooperation between the wireless 
industry, automakers, the Department of Transportation to 
resolve any possible interference issues and potentially 
develop constructive proposals in the area? Yes or no?
    Mr. Nebbia. Yes.
    Mr. Dingell. Again, Mr. Nebbia, given the Federal 
Communications Commission the license ITS service almost 15 
years ago, would it be premature for the Commission to 
authorize the use of unlicensed devices in the upper 5 
gigahertz band before studies are completed that confirm these 
devices will not cause interference to ITS services or that 
strategies are available to sufficiently mitigate this risk? 
Yes or no?
    Mr. Nebbia. Without those studies, yes.
    Mr. Dingell. Again, Mr. Nebbia, will NTIA recommend to the 
FCC that it make this band available for unlicensed devices 
only when and if NTIA is satisfied that unlicensed services can 
spare the spectrum with ITS services without interference? Yes 
or no?
    Mr. Nebbia. Certainly.
    Mr. Dingell. Now, Mr. Nebbia, I would like to urge NTIA to 
do its utmost to complete the 5 gigahertz study required in the 
Spectrum Act in the time allocated by Congress. Any FCC action 
in this area must be grounded on sound quantitative analysis. I 
intend to write this matter--write a letter on this matter to 
the Commission in order to establish definitively that it will 
not move to open up the upper 5 gigahertz band until successful 
completion of NTIA study.
    I ask unanimous consent, Mr. Chairman, that my letter and 
the Commission's response be included in this hearing's record.
    Now I would like to turn my attention to the relocation of 
federal spectrum. The committee called for such relocation for 
commercial use in both 1993 and '97. Last year, we enhanced the 
protections available to federal users subject to 
reallocations. For example, we amended the Commercial Spectrum 
Enhancement Act to allow agencies to use funds for planning 
purposes, and we raised the threshold amount to 110 percent. 
Again, Mr. Nebbia, is it accurate to say that federal users now 
have more protections than they did in '93 and '97? Yes or no?
    Mr. Nebbia. Yes.
    Mr. Dingell. Mr. Nebbia, does NTIA believe these safeguards 
are sufficient? Yes or no?
    Mr. Nebbia. Not completely, Congressman.
    Mr. Dingell. Beg your pardon?
    Mr. Nebbia. Not completely, no.
    Mr. Dingell. Would you please submit for the record further 
comments on that?
    Mr. Nebbia. Certainly.
    Mr. Dingell. Now, these are to the remaining witnesses. 
Ladies and gentlemen, would you please comment briefly on Mr. 
Nebbia's response to my last question? Ma'am?
    Ms. Takai. We certainly support the language that was in 
the CSEA. I think that is the heart of your question, sir. We 
believe that the----
    Mr. Dingell. So you believe the safeguards are sufficient 
or not?
    Ms. Takai. I believe the safeguard on the 110 percent 
requirement is sufficient in terms of being able to----
    Mr. Dingell. I have my doubts on that.
    Ms. Takai [continuing]. Support our----
    Mr. Dingell. Next witness, what are your feelings?
    Mr. Brenner. So Congressman Dingell, I want to see any 
issue involving the federal spectrum between DOD and NTIA or 
between DOD, NTIA, and the FCC resolved absolutely as quickly 
as possible.
    Mr. Dingell. And the last witness?
    Mr. Guttman-McCabe. Congressman, yes, I do think the 
protections are much greater than they were during the last two 
reallocation efforts, and certainly, you know, I think we 
believe that they are sufficient, but if they are not, we would 
like to know where those gaps are.
    Mr. Dingell. Mr. Chairman, I want to commend you again for 
this hearing, but I want to urge that we have the FCC in here 
because without hearing from them, this whole exercise may be 
negatory because we will not have heard the people that are 
going to make the decisions.
    I thank you for your courtesy to me.
    Mr. Walden. Mr. Chairman, I can assure you that in our 
monthly meetings we will have all three agencies before us.
    Mr. Dingell. I would just observe that from time to time, 
the FCC has not been forthcoming and I would observe--and I am 
using time that I am not entitled to for which I apologize--but 
I would observe that they refuse to answer questions sometimes 
because the result might be embarrassing. I would hope that we 
would have a more forthright interchange with that agency if 
it----
    Mr. Walden. We think in a bipartisan manner that may not 
apply to just one single agency. We are not pointing any 
fingers at any today, but we just occasionally think that. 
Thank you, Chairman.
    Mr. Dingell. A wise comment, Mr. Chairman. They are the 
ones that aren't here to hear us.
    Mr. Walden. Oh, they may be listening. And they may not be 
listening.
    We are going to turn now to the gentleman from Louisiana, 
Mr. Scalise, for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman. I appreciate you 
convening this hearing, and thank our panelists for being here. 
I know this is something that our committee has been struggling 
with for a long time, but really if you look at the 
marketplace, consumers have been demanding this freeing up of 
spectrum because of the speed of which the devices, the great 
products that you all create and the things it allows people to 
do and make their lives so much easier, that has increased the 
demand for spectrum, and yet the speed of government is just 
not moving fast enough. Unfortunately we see this in so many 
examples, but I think it was very significant that you had both 
Chairman Upton and Ranking Member Waxman, who do not come to 
agreements on big issues like this a lot, to both be in 
complete unison that the timeframe is not moving fast enough. I 
think Chairman Walden and I think Ranking Member Eshoo both 
recognize that as well. And so I do think, you know, hopefully 
that will spark some urgency within the federal agencies. I 
think having the FCC and NTIA and DOD having monthly meetings 
with our subcommittee I think will not only emphasize the 
urgency, but also create some deadlines and some timelines that 
we can compress, because this does have to get answered. We 
have been waiting for years to have a spectrum sale that the 
low-hanging fruit is gone already. I mean, at this point if you 
are really going to make some progress in freeing this up, and 
not only to generate revenue in the Federal Treasury, but to 
allow more innovation. I mean, we are holding back innovation 
by not getting these answers, and so hopefully we can spark 
that urgency but start getting the answers to these questions 
so that more of the spectrum can get freed up.
    I want to ask first, Mr. Nebbia, we have got some reports 
that have come out, PCAST, even some Presidential memos that 
talk a lot about sharing, and it has usually been in the 
context of sharing between federal agencies and commercial 
users, but where the federal agencies would actually have the 
primary jurisdiction. If there was a conflict, the federal 
agencies could trump. And what we have seen is that 
dramatically reduces the value of that spectrum. One of the 
things I would like to ask you, have you all looked, as you all 
are looking at this concept of sharing, have you all looked at 
the concept of sharing between federal agencies where you could 
free up spectrum for commercial sale where it would be more 
valuable and not shared, and the sharing would occur between 
the federal agencies on some of that space that is not being 
utilized most efficiently?
    Mr. Nebbia. Yes, I think the thing that is important to 
understand, the Federal Government lives in an environment of 
sharing. The federal agencies have almost no exclusive spectrum 
to any particular agency. In fact, in the 1755 to 1850 band, we 
have got over 20 agencies sharing that spectrum on a day-to-day 
basis. So sharing is the norm among federal agencies. Almost no 
bands that we use have exclusive access to one federal agency. 
So that is our challenge. We already live in that environment, 
and as we begin to work to free up spectrum, one of the 
possibilities that that results in is packing those federal 
agencies closer and closer together in terms of frequency, and 
when there are emergencies, for instance, and everybody lights 
up their systems potentially you have problems with them 
interfering with one another, so----
    Mr. Scalise. Do you recognize that the--and I think it is a 
very valid concern that is coming from the commercial users. 
One of the goals that we are trying to achieve is, there will 
be an expense to relocate federal agencies, and part of it, if 
you have a successful sale of an auction of this space that 
would be freed up that not only generates money for the Federal 
Treasury, but it also provides the money to go and relocate, 
and as the chairman said, to upgrade, to allow you to actually 
upgrade and make your technology much more efficient. Do you 
acknowledge that if you are just sharing between public and 
private, that it actually does diminish that value of that 
spectrum if it is just for shared use?
    Mr. Nebbia. I think it depends on the specific nature of 
the sharing that you set up. For instance, right now we still 
have federal agencies in the 1710 to 1755 band. That auction 
was an overwhelming success. So there are ways and situations 
where you can continue sharing. Obviously the more undefined it 
is, the more difficult it is for somebody to understand what 
value----
    Mr. Scalise. And I know my time is running short. I want to 
bring in Mr. Brenner and Mr. Guttman-McCabe on this. I know 
you, Mr. Guttman-McCabe had talked about the joining together 
of the two lines of spectrum of the 2155 as well as 1755, that 
you value--the value of it to the taxpayer would increase 
dramatically if those were joined together. Of course, that 
relies on having NTIA and other agencies providing us the 
reports.
    Mr. Guttman-McCabe. Correct.
    Mr. Scalise. If you can expand on that and maybe touch on 
what we are talking about regarding the sharing?
    Mr. Guttman-McCabe. Certainly. In our roadmap that we 
submitted, we suggest that the cost of clearing--an estimate 
for the cost of clearing the band 1755 to 1780 is about $4.7 
billion. If this spectrum is unpaired, what some economists 
have suggested is that the unpaired auction of it would be $3.6 
billion. It is south of the 110 percent that is required under 
the CSEA, so it doesn't happen. If you put it together and pair 
it together, I think it is reasonable to suggest, and I often 
hesitate to do this because that means my members have to pay 
that much, but I think it is reasonable to suggest $15 billion 
could come in if you look at comparable, including the AWS 
auction.
    And you had mentioned something else, Congressman. I know 
General Wheeler and his team and Ms. Takai and her team and Mr. 
Nebbia, they are working hard, but I think what we need is that 
speed to market, that market speed that you talked about to 
move this forward, and we know this because you, we think 
intelligently, set an auction deadline, a licensing deadline 
for the upper half of the spectrum, the 2155 to 2180. So all we 
are asking for is a little bit greater alacrity. We have had 
some great movement recently and we are happy with that and we 
have had some movement on nondisclosures and memorandums of 
understanding, but we--speed is something that I think is 
integral to this process.
    Mr. Scalise. I see my time is expired, so I appreciate your 
answers and yield back the balance of my time, Mr. Chairman.
    Mr. Walden. Gentleman yields back. Chair now recognizes the 
gentleman from Pennsylvania, Mr. Doyle, for 5 minutes.
    Mr. Doyle. Thank you, Mr. Chairman.
    Ms. Takai and Mr. Nebbia, I understand that we know in the 
past there has been difficulties communicating between your two 
agencies and the issues related to the 1755 to 1780 band, but 
recently, however, a trusted agent program has been 
implemented. What is the status of this program, and has it 
been successful in resolving difficulties in communications 
between your two agencies? And additionally, Ms. Takai, can you 
commit to moving forward expeditiously and resolving any 
outstanding issues in a timely fashion now that this trusted 
agent program is in place?
    Mr. Nebbia. Let me just mention up front, Congressman, the 
concept of the trusted agent is dealing with communications 
between the federal agency that has sensitive information that 
cannot be made public, and the private sector.
    Mr. Doyle. Right.
    Mr. Nebbia. The distinction there is not in discussions 
between NTIA and the DOD. There is no difficulty in us 
communicating----
    Mr. Doyle. No, I understand that. What is the status of the 
program and how do you think this is going to help you move 
expeditiously?
    Ms. Takai. Well as I said, sir, it is in two steps. First 
of all, we have established MOUs, for instance, with DISH 
Network on some specific information sharing that is necessary 
around a particular band. So we are doing that to make sure 
that we have communication. The second thing is we have signed 
12 NDAs with members of the CSMAC, so that is completed. The 
third step, which we really believe is a major step to speeding 
the process up, because the challenge, I think, has been for us 
to get this done quickly, is one where we have a proposal on 
the table. We are currently in discussion with NTIA and so we 
would anticipate moving that fairly quickly, and we are happy 
to come back and report on the status of that in one of the 
future meetings.
    Mr. Doyle. Great, thank you.
    Mr. Nebbia, you said in your testimony that NTIA is working 
with DOD, FCC, and the industry on a two-phased roadmap to 
clear the entire 1755 to 1850 band. Can you give us a timeline 
for producing that roadmap, and can you produce that roadmap in 
time for the 1755, 1780 band to be paired for the September 
2014 auction?
    Mr. Nebbia. Well certainly the work that has been done thus 
far in CSMAC is absolutely--has been absolutely crucial to 
being able to put that roadmap together. Industry drafted 
theirs based on the outcomes that they were seeing in that 
work. We are looking at similar types of input from DOD and the 
Commission, so I believe in the next few months we are going to 
have resolved that and we are going to be giving direction to 
the agencies concerning the preparation of their transition 
plans. But ultimately the critical issues that need to be 
solved is where do these systems go? A couple of the bands that 
we have talked about thus far, one of them is in the hands of 
the broadcasters so there will be some impact there. That is a 
door we would have to open. Another one of the bands is 
actually of interest to the Wi-Fi industry of 5 gigahertz that 
we are also discussing today. So there are not simple 
processes. We have got to move other pieces in order to make 
these things work. So that becomes the challenge in getting 
agreement with the FCC and the industries involved there for 
that type of arrangement.
    Mr. Doyle. Thank you. Mr. Chairman, I know my colleague, 
Ms. Eshoo, has some additional questions and I would like to 
yield the balance of my time to her.
    Ms. Eshoo. I thank my friend from Pennsylvania.
    The question that I would like to ask now is related to 
wireless. It is a little off the whole issue of spectrum, but 
nonetheless, I think it is an important one. I would like to go 
to Mr. Guttman-McCabe, because he heads up CTIA.
    Last month, one of the larger member companies of your 
organization announced a 61 cent administrative fee for all of 
its contract wireless customers. Now, in looking at the bill, 
the contract is for $89.99. When you go online to sign up for 
it--this is for new service. You go to your Web site. There are 
three different pages and you move from one, you have to click 
to another. You go to page two, the due monthly still says 
$89.99. You go to step two, other charges applicable to 
wireless service--I have 20/20 vision, but I am telling you, 
God has got to give you another set of eyes to read this. I 
don't know who can, and I think it may be purposeful so that 
you can't figure it out. Then you go to step three, and yet it 
still doesn't total out what all of these fees equal.
    Now this large company is not the only one that is doing 
this. I am just using this as an example, but the press reports 
say that this will gross this particular company at least a 
half a billion dollars in additional revenues. So you know, the 
consumer, I think, should have certainty. If there is a 
contract for $89.99 or whatever the contract is for, what are 
all these extra fees that are being--these new charges--what 
are they called? I don't know. Name it. You can call it 
whatever you want, but it is not part of the contract. So you 
sign up for one thing and then you get another deal, which I 
don't think is so terrific for consumers. So can you just 
briefly explain what the industry's rationale is for separating 
these mandatory--I guess they are mandatory. I don't know if 
they are mandatory or not. Below the line fees from advertised 
monthly price of the service?
    Mr. Guttman-McCabe. Yes----
    Ms. Eshoo. This is now across the board. Companies are all 
doing this. Sign up for one thing, you get all these other fees 
and charges but they are not advertised.
    Mr. Guttman-McCabe. Certainly. I am going to be brief, 
because I just got a new job within CTIA and I would like to 
actually take it, and so talking about fees and prices gets me 
in trouble----
    Ms. Eshoo. Timing is everything.
    Mr. Guttman-McCabe [continuing]. With my general counsel 
who has probably the ability to remove that new title.
    Ms. Eshoo. I think it is important to----
    Mr. Guttman-McCabe. No, but I think----
    Mr. Walden. I do also.
    Ms. Eshoo [continuing]. Have a conversation about this, but 
it is important to raise.
    Mr. Guttman-McCabe. Sure, it is a good point.
    The reality is, we benefit, consumers benefit from national 
advertising from the ability to present the customer with a 
single price, but taxes and fees do vary in jurisdictions. I 
mean, I know you recognize that. And so I think our carriers 
are very clear up front, it is X plus taxes and fees, and the 
taxes and fees, the taxes are what the taxes are based on the 
municipality. We have some--we have on average 17 percent tax 
rate, which is troubling, I think, to most Americans. The fee 
portion of it is----
    Ms. Eshoo. These are not taxes though.
    Mr. Guttman-McCabe. No, it is----
    Ms. Eshoo. What----
    Mr. Walden. That may be.
    Mr. Guttman-McCabe. So you are saying there is an 
advertised price and then there are taxes and fees. The fee 
portion of it is a recovery of some of the costs of doing 
business in different locations, and what they do is they 
generally make an average. And the reality is in our 
marketplace, consumers will dictate what the carriers can 
charge by moving from company to company. And so those, we see 
different companies with different prices or different fees, 
and that is driven by what consumers will bear.
    But I think it is also fair to say that money is returned 
exponentially back into the marketplace. I mean, we have $30 
billion in capital expenditure, and all of that is part of the 
revenue that the companies take in the cost of----
    Mr. Walden. I am going to proceed here.
    Mr. Guttman-McCabe [continuing]. Regulation and others, 
there is a fee, there is a cost to them and I think that is 
what you see in the fees.
    Mr. Walden. I think your point is you want better 
disclosure to the public and truth in advertising.
    Ms. Eshoo. Yes, I think if you sign up for something, that 
is the cost. If that is not what the cost is going to be, then 
say so.
    Mr. Walden. Yes.
    Ms. Eshoo. But these additional fees--and I am not talking 
about taxes, so I think we will have----
    Mr. Walden. Yes, I will let you----
    Ms. Eshoo [continuing]. More discussion. Thank you.
    Mr. Walden. You will like my bill, too, then on Obamacare. 
It discloses all the taxes on your premium so you will know. 
That has been introduced.
    We will go to Mr. Long now for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman, and thank you all for 
being here today.
    For the entire panel, the Commerce Spectrum Management 
Advisory Committee, CSMAC, we call it, advises the Assistant 
Secretary of Communications and Information at NTIA on a broad 
range of spectrum policy issues. The members are spectrum 
policy experts appointed as special government employees from 
outside of the Federal Government. Committee members offer 
expertise and perspective on reforms to enable new technologies 
and services, including reforms that expediate the American 
public's access to the broadband services, public safety, and 
long range spectrum planning. Members are selected based on 
their technical background and expertise, as well as NTIA's 
commitment to ensure diversity and balance and points of view. 
Members serve in a personal capacity and do not represent any 
organization or interest.
    Now the CSMAC, it reads like a who is who on steroids. The 
co-chairs, Dr. Brian Fontes, Chief Executive Officer, National 
Emergency Number Association, and the other co-chair, Dr. 
Gregory Rosston, Deputy Director, Stanford Institute of 
Economic Policy Research of Stanford University. Members--I 
won't list them all--but they include a product manager at 
Google, vice president and director, Wireless Future Program, 
the New American Foundation, a professor from the University of 
Michigan Law School, president and chief executive officer, 
Enterprise Wireless Alliance, president, Association of Maximum 
Service Television, Inc., vice president of business 
development, Verizon, director of business development, 
Comsearch, executive director, Center for Law and Technology 
Entrepreneurship, University of Chicago, technology policy 
consultant, Intel Corporation, IT manager of communication, 
infrastructure, strategy, Exelon Corporation, the president of 
Shared Spectrum Company, the founder and president of Freedom 
Technologies, vice president, global advanced technology 
policy, Cisco Systems, assistant vice president of public 
policy at AT&T, the head spectrum management department at 
Raytheon Space and Airborne Systems, a vice provost of the New 
Initiatives and research professor of computer science, 
Illinois Institute of Technology, a consultant at Qualcomm, an 
aerospace corporation, head department of electrical and 
computer engineering, North Carolina State University, a senior 
vice president of government affairs at T-Mobile, and a vice 
president of technology policy and regulation, Lockheed Martin 
Corporation. That is not even the complete list, so like I 
said, it is kind of a who is who on steroids.
    So my question is for the entire panel. The CSMAC, Consumer 
Spectrum Management Advisory Committee, is working on clearing 
federal spectrum for commercial broadband use. It has been slow 
so far, more like dial-up, I would say, than broadband. What 
could you suggest to move this process along, and how can the 
pace of CSMAC's work be improved? And as a sidebar, with that 
many people from that many different areas, is the committee 
too large? But what would you suggest to get them out of the 
dial-up age and into the broadband age as far as moving this 
along?
    Mr. Nebbia. Thank you, Congressman. The work that this 
group is doing is very complex. In fact, the group that you 
specifically named are the members of the main committee. We 
have actually had many, many more people involved in the 
working groups, the actual engineers and representatives, the 
companies and technologies that are involved here. So we have 
broken this work out, actually, into working groups that have 
then reported back to the main body. So we have engaged a lot 
of people in this process. One of the challenges has been this 
issue of sharing specific sensitive information which DOD and 
the industry is working out, but some of it has just been the 
pure challenge of being able to model and understand how the 
networks work. For instance, it took us about 4 months to get 
an accurate picture from the industry as to how we should 
represent their networks in any analysis that we did. These are 
very complex issues. The systems are very capable of changing 
how they are operating and so on, so it has been a difficult 
discussion. But I think the steps that DOD is taking in opening 
this----
    Mr. Long. I will move on to DOD. I am running out of time 
here, but suggestions on moving their work along more rapidly?
    Ms. Takai. Yes, sir. Well first of all, to comment, DOD has 
put over 50 full-time employees as a part of the CSMAC process 
to make sure that we move the engineering along. In terms of 
the answer to your question, we are now at the point where the 
CSMAC results will be available in the July timeframe, and I 
think from that to the point of this committee, we are prepared 
to be able to make some decisions and make some tradeoffs and 
be able to move forward.
    Mr. Long. OK, thank you.
    Mr. Brenner, even though I am over my time?
    Mr. Brenner. Yes, respectfully, Congressman, the problem is 
not CSMAC. CSMAC is completely fine. The problem is monthly 
meetings up here, deadlines, accountability, clear delineation 
of responsibility, clear communication on the Federal 
Government side. These are the issues. CSMAC is just fine.
    Mr. Long. Mr. Guttman-McCabe?
    Mr. Guttman-McCabe. Yes, I would agree with Mr. Brenner, 
and I just think a lack of information hindered the process and 
I know we are moving there and Ms. Takai and General Wheeler 
and Mr. Nebbia are, I think, going to try to move the process 
forward and we have made some headway. Sharing of information 
is key. Whether it is sharing that results in actual sharing of 
spectrum or sharing of information that results in clearing and 
finding new bands, it is information exchange that is key.
    Mr. Long. Thank you, and I yield back.
    Mr. Walden. Gentleman yields back his time. The chair now 
recognizes gentlelady from California, Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman, and I think all of you 
recognize the sense of urgency expressed here and the sense 
that we really need to move along.
    Mr. Guttman-McCabe, one of the most pressing issues that 
DOD would like answered and which is important is where DOD can 
relocate once they have vacated the 1755 to 1780 band. Do you 
have any ideas specifically for us to consider?
    Mr. Guttman-McCabe. Certainly, Congresswoman, and I 
submit--and if we haven't formally put the roadmap on the 
record, I would ask the ability to do that. But in our roadmap, 
we identify the ability for some systems to potentially 
truncate, for others to move out of bands maybe higher up in 
the spectrum, and then for others, we identify bands, I think 
as I stated earlier, that are already have some government use 
in them. So we have identified a range of bands----
    Ms. Matsui. Do you--can you be more specific in these bands 
that you are talking about?
    Mr. Guttman-McCabe. Sure. I will pull this out, but for 
instance, particularly the four that are most difficult are in 
the working group five. They all involve some form--or almost 
all involve some form of aeronautical usage. So we talk about 
the air combat training systems able, hopefully, to be 
truncated, moved up within the 1755 to 1780, move from 1780 to 
1850. As part of that, we talk about moving the AMT systems, 
the aeronautical mobile telemetry, moving them up higher in the 
band. The same thing is true with the small unmanned aerial 
vehicles is truncating some of their uses into the 1780 to 1850 
band, and then to the extent that we can, we have identified 
some other bands that government can go into, the 1435 band, 
the 1780 band, the 2200 band. These are some of the bands that 
are already in play, have already been discussed in the 
original report from NTIA----
    Ms. Matsui. When was this roadmap developed?
    Mr. Guttman-McCabe. It was I think finalized about a month 
ago.
    Ms. Matsui. OK, and this is--you all have not had the 
opportunity to actually look into it and study it, is that 
correct?
    Mr. Nebbia. Actually, we have begun to study it, 
Congresswoman, so we see points of interest here. They did 
suggest, for instance, the 5.1 gigahertz band for some of the 
systems. That also was a band that Comcast would like to use 
for increased Wi-Fi capability. So once again, each of the 
bands that get identified ultimately have some of their own 
issues to them, and that is why we are trying to work out as 
many of the systems as possible that can stay. In fact, 
industry is suggesting even with some of these aeronautical 
systems that there may be other approaches that they can take 
to living with them.
    Ms. Matsui. OK, so is this a starting point then, for all? 
Ms. Takai?
    Ms. Takai. Yes. Just as a comment there, we do believe that 
it is a starting point. We do also feel that there--as the NDAs 
(non-disclosure agreements) are being signed so that we can 
increase the information sharing between the two groups, there 
will be additional information that will impact that industry 
roadmap, and so what we need to do now is to really take that 
additional information, use the industry roadmap, and then look 
at what the suggestions would be for the way ahead.
    Ms. Matsui. OK. Question for Mr. Guttman-McCabe and Mr. 
Nebbia. In your view, if the FCC auctions AWS-3 band without 
the pairing of 1755 to 1780, then could the entire 1755 to 1850 
band be potentially lost forever for commercial and innovation 
purposes? Mr. Nebbia?
    Mr. Nebbia. I think certainly industry has expressed the 
fact that they need more downlink spectrum, so that certainly 
makes the upper portion worth more. I don't think necessarily 
that auctioning them separately necessarily makes that a 
permanent situation, but in fact, forcing all the federal 
agency operations into the upper portion will almost certainly 
lock that piece out from being able to be used in the future. 
So I think there is a significant impact here if we take that 
short step without knowing where we are heading. So I don't 
think it rules it out, but it certainly would make it more of a 
challenge.
    Ms. Matsui. OK. How about Mr. Guttman-McCabe?
    Mr. Guttman-McCabe. Yes, there is a significant concern of 
ours that auctioning them separately wouldn't bring sufficient 
revenue to satisfy the Commercial Spectrum Enhancement Act, so 
as a threshold issue, you couldn't hold the auction. And so 
that is obviously a significant concern. For us, the fear that 
you orphan the band when the rest of--we say 17 of the G-20, it 
is everyone. You don't stop there. We have a map here--it is 
hard for me to see from this distance, but everything of color 
is where this band is being used for commercial operation, so 
it is Asia, south Asia, it is all of Europe, it is Africa. It 
is everywhere where we would want to compare ourselves to. But 
I think almost more importantly, Ms. Takai suggested that the 
Department of Defense--and this is logical--that they use 
spectrum to properly train as we must fight. Well, I would 
argue every place where you are going to potentially fight is 
using this band for commercial purposes, so is this the proper 
band to train in the United States?
    Ms. Matsui. OK.
    Mr. Guttman-McCabe. Most of the Middle East, most of the 
countries in Europe and Asia and south Asia use this for 
commercial purposes.
    Ms. Matsui. Certainly we all know that this band is really 
very important for America's innovation economy, and it is 
really critical that we not let this ship sail. I think there 
is agreement there, and we shouldn't pass on this unique 
opportunity.
    And I just want to say something here. Ms. Takai, you have 
demonstrated really strong leadership and shown an openness to 
work with us in good faith on this complicated issue. Moving 
forward, given the process as has been discussed between 
Chairman Upton and Ranking Member Waxman moving forward, can 
you commit to our subcommittee that you will continue to work 
with us in good faith and a constructive manner to find the 
solution here?
    Ms. Takai. Absolutely. DOD is committed to finding the 
solution to this issue. I really want to make sure that we have 
that on the record. We really have, number one as I mentioned, 
we have a plan to move and we certainly have worked, as I say--
we put 50 full-time folks in, even in this budget time, to work 
the CSMAC process to see if we can't do the relocation, whether 
or not we can solve this problem through spectrum sharing.
    So we are committed, again, to finding a solution to this 
issue, to making sure that we can make the best decisions in 
1755 to 1780 as well as the rest of the band. So----
    Ms. Matsui. We appreciate that.
    Ms. Takai [continuing]. We welcome the opportunity to, 
quite frankly, be here with the FCC and have the three of us 
actually see what we can do to work through the issues, because 
I do think it will take the three organizations in order to 
make the necessary decisions to move forward.
    Ms. Matsui. Thank you very much, and I think you realize 
that there is this unique opportunity, and we really feel that 
we really need to move forward as quickly as possible.
    Thank you.
    Mr. Walden. I would like to insert in the record a copy of 
the ``Industry Roadmap to Assessing the 1755 to 1850 Megahertz 
Band.''
    Without objection.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. And now we will turn gentleman from Kentucky, 
Mr. Guthrie, for 5 minutes.
    Mr. Guthrie. Thank you, Mr. Chairman. I appreciate you 
being here. Sorry I was at another hearing of a subcommittee of 
this full committee.
    You know, the Federal Government is changing, the world is 
changing. Communications are so important, and it is difficult 
in these budget constrained times to get the right equipment at 
the right place at the right time. Ms. Takai, I just heard what 
you said to Ms. Matsui and I agree with that, but would the 
opportunity to purchase new state-of-the-art equipment due to 
money generated from sales from spectrum--the opportunity to 
buy new state-of-the-art equipment be an incentive for your 
agency to relocate? Some of your aging communications systems 
are moving away from the propriety federal to the sharing or 
the commercial systems. Would that be an incentive that would 
be helpful to DOD?
    Ms. Takai. Yes, sir. There are two things that you 
mentioned there that are important. One is the ability to look 
at new technologies that allow us to better take advantage of 
using less spectrum for the operations that we have. The second 
is the money for us actually to do the transition, either to a 
shared environment or to another exclusive environment. So 
those are the opportunities.
    Now some of that funding is included in the funding that 
would come to us as a part of the auction process, so it 
wouldn't necessarily be incremental funding, but that is where 
we would really need to make those decisions around what those 
steps would be, do the auction, and then be able to have the 
funding to make those moves.
    Mr. Guthrie. We will take it. May be an opportunity to 
modernize some areas.
    Mr. Nebbia, does the NTIA, have they developed any metrics 
for assessing how effective federal agencies are in using 
efficient--spectrum efficiently?
    Mr. Nebbia. There are certainly existing measures related 
to the nature of a particular transmission. For instance, we 
try to eliminate as much of the unwanted emissions in any radio 
signal. Trying to evaluate the efficiency in terms of how much 
the systems are actually turned on we do not have a measure 
that we implement along that line. Each agency operates its 
systems according to its schedules and immediate needs. For 
instance, Department of Justice in the particular band that we 
are looking at operates law enforcement surveillance systems 
across the country. They operate at any particular time and 
location, so if you are asking for that kind of data, we simply 
don't have that kind of monitoring. To know more generally, 
yes, we have a sense of, in many cases, some of the systems are 
on all the time, others operate more sporadically.
    Mr. Guthrie. Do you have any idea what kinds of carrots we 
could offer to agencies to be more efficient with their 
spectrum?
    Mr. Nebbia. Well, the one carrot that is in the CSEA right 
now is this concept that they can move to improved equipment. 
That certainly is a benefit to everybody, but you still have to 
be able to perform the mission in some band, so not only do you 
get the better equipment, but there has to be a band to move it 
to. And then ultimately when you are looking to move in that 
direction, you have to have a sense that you have got some 
stability, some--it is not we are going to give you an 
incentive to move there tomorrow and then next week we are 
going upset the apple cart again and ask you to move again. So 
we have got to come up with approaches like that. It is like if 
I ask you or I direct you to move from your home and I say I am 
going to compensate you for that move, it is not an incentive 
to want to move. To provide an incentive, you actually have to 
give somebody something that improves their situation, and it 
is both the place to go, the equipment to use, and that long-
term sense that they are going to keep meeting the mission that 
we have all given them to meet.
    Mr. Guthrie. That is a fair point. Thank you.
    Mr. Chairman, I yield back.
    Mr. Walden. Mr. Nebbia, that is exactly what we are talking 
about trying to figure out how to do.
    So we will go now to the gentleman from Utah, Mr. Matheson, 
for 5 minutes.
    Mr. Matheson. Thank you, Mr. Chairman, and thanks to the 
witnesses. As many folks have mentioned, we have multiple 
subcommittee hearings going on at the same time, so I have a 
couple of questions and I will apologize in advance if there is 
some redundancy or if there are questions you are already 
answered today.
    I wanted to ask Mr. Brenner a question. There has been--it 
is well accepted the huge increase in demand for spectrum with 
new devices and new technology is right there in front of us, 
and one suggestion has been a way to accomplish or to 
accommodate this is to establish some sharing regimes on parts 
of the spectrum. Can you explain what some of the different 
types of possible spectrum sharing regimes might have, and what 
impact those types of arrangements have on potential spectrum 
valuations at an auction?
    Mr. Brenner. Sure, Congressman, thank you for that 
question. So in my testimony I described the sharing regime 
that Qualcomm, Nokia Siemens and other companies are working 
on. We call it authorized shared access. Now Wi-Fi itself is a 
sharing regime, right? I mean, it is unregulated, there is no 
management to it, maybe it works, maybe it doesn't. Obviously 
if you are going to auction spectrum on the basis of that, you 
are going to get almost nothing for it. There is no 
predictability to its use at all. In contrast, obviously the 
best regime, the highest value regime is the spectrum is 
totally clear and pristine before the auction. You know you can 
get exclusive use to it the day the auction ends. That is 
obviously highest value. And by the way, we have done auctions 
three different ways in that regime. We have had the spectrum 
clear before the auction, we have had the spectrum clear after 
the auction, and now in the incentive auctions we are going to 
try to clear the spectrum through the auction.
    So authorized shared access, what we are trying to do is 
get the situation of bands that are in between where we don't 
want to have them just be completely devalued and where they 
would be unusable for cellular, like just the pure unlicensed 
regime, and on the other extreme, you know, it is spectrum that 
just as far as the eye can see. There isn't a date certain, 
there is no reasonable path to clear it. So then this 
intermediate regime we call authorized shared access and here 
is how it works. There are no changes to devices. There are no 
changes to networks. The device has to have support for the 
frequency band, and the cell has to have support for the 
frequency band, but that is not a big deal. There is no new 
technology. Instead, what there is is a database, and one 
authorized operator, and that is key to this system. It is 
binary. Either the government has the spectrum in use or an 
authorized operator has it, and that operator has a network. 
This device talks over some other frequency band or through a 
wired connection to the network and it says I want to go on. 
The network talks to the database. Only the network talks to 
the database. There is a clear accountability, and the database 
then has the information from the government as to how much 
interference, how much power can be tolerated at the location 
of the small cell is located at.
    And we think that way, when the spectrum is not in use by 
the government, where the spectrum is not in use by the 
government, an operator could use the spectrum and we think you 
would get significant value for the spectrum. Again, only in 
this intermediate situation. Thank you.
    Mr. Matheson. I would ask Mr. Guttman-McCabe, do you 
believe there would be a strong incentive to bid on spectrum 
licenses if there was some type of this sharing agreement?
    Mr. Guttman-McCabe. Yes, I think the key, Congressman, 
would be agreement. I think Mr. Brenner had said the more you 
know up front, the more you know in advance, the greater the 
likelihood that you would feel comfortable bidding. And so we 
look at it sort of like Mr. Brenner does. It is almost 
bifurcated. On one side is geographic or temporal use, so 
something where you really know who is there geographically and 
you can use everything but that area, or we know time-based or 
temporal. You can have access to the spectrum for every day of 
the week except for X or Y.
    Then on the other side is cognitive, and what Dean's 
company is doing is beginning to sort of, I think, blur that 
bright line in that there is a cognitive element to this, but 
there seems to be the ability to get some level of comfort. And 
so I think there has to be an understanding that you actually 
will get access and that the government will provide some real 
time or some in advance understanding of what access you are 
getting. But it is all about information. If you don't feel 
comfortable that you actually will be able to use the spectrum 
a fair amount of time, then the value obviously is going to 
decrease precipitously.
    Mr. Matheson. OK, appreciate those answers. Mr. Chairman, I 
yield back.
    Mr. Walden. Thank you. Chair now recognizes Mr. Lujan for 5 
minutes.
    Mr. Lujan. Mr. Chairman, thank you very much. I really 
appreciate you holding this hearing and Ranking Member Eshoo as 
well.
    I must say, coming into this hearing I am sensitive to both 
sides with the concerns that they have. I come from a rural 
State where it is challenging in some of the mountainous 
regions to get more penetration for additional bandwidth for 
many of my constituents. I represent two national--one national 
lab with two national labs residing in the district, Sandy and 
Los Alamos. The Air Force Research Lab is in the State of New 
Mexico. Cannon Air Force Base is in my district, currently an 
Air Force base, Holloman, White Sands. Parts of Fort Bliss from 
a training perspective, we have important training grounds in 
the State of New Mexico. But I must say, based on some of the 
responses today that I have some questions.
    Ms. Takai, you indicated that until we are told, so I guess 
until the Department of Defense is told or until the Department 
of Defense is given direction, that this is something that is 
being looked at but not necessarily a priority. If you could 
clarify that for me, I am trying to understand until Department 
of Defense is given direction to do what?
    Ms. Takai. Well first of all, Congressman, let me just 
clarify. As I mentioned to you and as I mentioned to the 
committee, we are not hanging back and waiting for direction. I 
mean, we have put over, as I mentioned, 50 people into the 
CSMAC process to look at what the options are for spectrum 
sharing. The point is, there needs to be a decision in order to 
actually make the auction happen and make the decision happen 
around what bands we are going to auction and the dollars that 
are coming in. So what we are saying is that as a result of all 
of the participation we have had, both in the study we did on 
the relocation completely and the sharing, now we are to the 
point where we have significant information. We need to make 
the decision around what areas are we going to share, where is 
there going to be comparable spectrum in order for us to be 
able to move.
    Mr. Lujan. So a decision needs to be made by whom?
    Ms. Takai. It is a combination. It is recommendations 
coming from NTIA and then ultimately FCC would be involved as 
well in making the decision, particularly around the comparable 
spectrum, and then--because right now, what we have is we have 
a menu of options of things that we could do. I don't want to 
leave you with the impression that we don't. In fact, we have 
any number of combinations of things that we could do. But from 
an engineering perspective, we need to pick those, make them 
fit together, and then go and implement those. And that is the 
challenge I think we have right now.
    Mr. Lujan. And Ms. Takai, spectrum is important to the 
Department of Defense, correct?
    Ms. Takai. Absolutely.
    Mr. Lujan. So I think that Ranking Member Eshoo asked a 
question about timeline. I think my colleague, Ms. Matsui, 
submitted into the record the President's Executive Order or 
memorandum to the heads of the executive departments and 
agencies that lays out inherent timelines therein, 3 month 
timelines, 6 month timelines, 12 month timelines, and I hope 
that that is enough to give direction, to say this has to be 
done and we need to move forward to be able to talk about this.
    The reason that I asked the question about the importance 
of spectrum to the Department of Defense is does the Department 
of Defense monitor filings at the FCC associated with spectrum?
    Ms. Takai. Yes, sir, we do.
    Mr. Lujan. So how don't you have what they gave you earlier 
when--there was a question about a report not being given to 
Department of Defense or not seeing it. How does Department of 
Defense not have it?
    Ms. Takai. Well sir, we have been working with the industry 
folks on the report. There are some areas where we have to 
increase the information sharing as it results on the report. 
But I think what we have been doing is we have been seeing some 
of the preliminary recommendations, but in terms of the final 
report, bringing it all together and also looking at where, in 
fact, they were able to take our input and where they weren't. 
That was really where my comment was.
    Mr. Lujan. So before today, has Department of Defense seen 
the document that was handed to you?
    Ms. Takai. We have seen preliminary copies of the report, 
yes, sir.
    Mr. Lujan. So you did have it?
    Ms. Takai. We had preliminary copies of the report, yes.
    Mr. Lujan. Do you have the copy that was given to you 
today?
    Ms. Takai. I do.
    Mr. Lujan. Did you have it before?
    Ms. Takai. No, we did not have that report before.
    Mr. Lujan. So Mr. Brenner, was that filed with the FCC 
before today?
    Mr. Brenner. It was. It was filed by T-Mobile. T-Mobile 
went and met with the FCC, gave it to the FCC, and under the 
FCC's rules, T-Mobile was required to file it and I got it off 
the FCC's Web site.
    Mr. Lujan. So Mr. Chairman, before I was elected to 
Congress I was on the utility commission, and interested 
parties paid attention to cases that were important to them. 
When filings were made, you better know what was in that filing 
to be able to defend the position of the party and the client 
that you represent. And I would hope that after today, I think 
the chairman has made it abundantly clear, as has Ms. Eshoo, we 
need to be talking. We need to be monitoring these filings and 
doing all we can to be in a position to carry out the 
President's memorandum that says we must do this as effectively 
and efficiently as possible.
    And again, Mr. Chairman, I am sensitive to both sides here, 
but some of the responses today I guess place some questions on 
my mind associated with information sharing. So I look forward 
to working with you, sir, and Ranking Member Eshoo. Thank you 
very much to the witnesses today.
    Mr. Walden. Thank you. Turn now to our gentleman from 
Illinois, Mr. Rush, for 5 minutes.
    Mr. Rush. I want to thank you, Mr. Chairman, and I want to 
thank the Ranking Member Eshoo for convening this hearing.
    My question is directed, first of all, to Ms. Takai. I 
recall sitting in a number of subcommittee hearings over the 
last Congress when we marked up the Middle Class Tax Relief and 
Job Creation Act of 2012, and in doing that, we reallocated D-
Block spectrum for public safety and first responders. The 
Congress also provided an incentive auctions framework for 
relocating TV broadcasters at government expense and paying for 
the national Public Safety Network, mainly to free up more 
wireless broadband spectrum.
    Ms. Takai, it is one thing to say that carriers may not 
invest in shared spectrum, and I am sure that that is true, but 
it sounds like you disagree with Mr. Guttman-McCabe that 
effective commercially available spectrum sharing technologies 
simply do not exist. Do you agree or disagree with that?
    Ms. Takai. Congressman, I hope I have not given the 
impression at all that we don't believe the spectrum sharing is 
viable and workable. We absolutely do believe it is viable and 
workable. We share with other government agencies and we share 
with industry in many different situations where, in fact, we 
can. So if that was the impression I left, that was certainly 
not the impression I meant to leave.
    There are, however, some systems where, in fact, we utilize 
really all of the band and therefore--and I think that was also 
expressed by industry--there are situations with particular 
systems where, in fact, sharing may not be viable going 
forward.
    Mr. Rush. These technologies are highly complex, but can 
you quickly tell us about the major barriers in realizing and 
implementing these technologies?
    Ms. Takai. The major barriers in terms of implementing 
spectrum sharing, I think we have spoken of a couple of them. 
First of all, one of them is if we were to do geographic 
sharing, that, in fact, means that we have to ensure that where 
we are not using the spectrum that it is an advantage to 
industry to be able to use the spectrum in that geographic 
area. The second is we share it from a time standpoint, so on 
times that I am not using it, industry does use it. And there 
are cases where, in fact, we can do that. And then finally, 
there are areas where we are utilizing the band both from the 
standpoint of geography and from the standpoint of the amount 
of time we use it, which then makes it very difficult for us to 
be able to share.
    Mr. Rush. Mr. Guttman-McCabe, do you have anything you want 
to add to that?
    Mr. Guttman-McCabe. No--well, I guess yes, Mr. Congressman. 
I agree with Ms. Takai completely. I mean, I think that there 
are areas where geographically I think we will be able to 
potentially share. We are looking at the satellite systems that 
are in the band as one example. We haven't yet come across, but 
that doesn't mean we won't come across time-based or temporal 
sharing opportunities, at least in this scenario. Mr. Brenner's 
company is investigating something that is even a little bit 
different than that, which is, you know, an intelligence-based 
type of sharing where you are dipping into a database that is 
already populated. So that, to me, is the next step but it is 
something that seems logical because I think people would know 
that the database is populated and be comfortable with a 
certain level. It is the step after that, it is sort of the 
real time intelligence or cognitive-based that, you know, we 
have heard and heard that it is not commercially available yet. 
We haven't seen it. I am not sure that Department of Defense 
would be comfortable with that on either side of the equation. 
I am not sure commercial or Department of Defense would be 
comfortable with that.
    But the key thing to recognize here is that the four 
important systems that we are stuck having a debate back and 
forth about, I think everyone has already concluded we can't 
share with those. And so we continue to have our wheels 
spinning investigating sharing when the reality is it doesn't 
seem like sharing is going to deliver any usable spectrum or 
give the Department of Defense a comfort level. So----
    Mr. Rush. My time is running out and Mr. Guttman-McCabe, I 
represent a district where there is inter-generational 
unemployment, and jobs are the number one issue in my district 
and other similar districts across the Nation. If this Congress 
works with you to clear up spectrum for industry's use, then 
what commitment do your member companies have to create jobs 
not overseas, but here at home?
    Mr. Guttman-McCabe. Congressman, I am excited to say that 
our industry will commit to that, because that is what we do. I 
mean, we are one of the bright shining elements of the economy 
right now. You know, we have foreign companies moving their R&D 
facilities into the United States because we are at the cutting 
edge, so the Ericssons and the Nokia Siemens, all of these 
companies are moving their facilities into the United States 
and bringing jobs with them. So we are almost the opposite of 
some of the job flight that you see, and we have this concept, 
we call it the virtuous cycle. You bring spectrum to market, 
then companies like Dean's and others come up with new 
technologies on the infrastructure side, then handset 
manufacturers come up with new capabilities in their handsets. 
Then we have this whole new applications world that didn't 
exist comes about, and then consumers buy more products and we 
are back up asking for more spectrum. It is a cycle that 
benefits the economy, it benefits your constituents. Seventy-
eight percent of the apps developers are small businesses, so 
those are jobs that zero of them existed 3 years ago. So we are 
going to--we are driving jobs. We have more capital 
expenditures than the entire EU combined when it comes to 
mobile capital expenditures. So I will heartedly and excitedly 
make that opportunity--or make that commitment if you give us 
the opportunity in terms of new spectrum.
    Mr. Rush. Thank you, Mr. Chairman. I yield back.
    Mr. Walden. I thank the gentleman for his questions. I 
thank our panelists for their testimony. It has been most 
enlightening, and I think you can see, we had 14 of our members 
here and asking questions throughout the course of the hearing, 
even though we had multiple hearings going on this morning. So 
we will look forward to seeing you on a regular basis to 
continue in joint progress.
    I believe Mr. Latta had something he wanted to put in the 
record on behalf of Chairman Upton.
    Mr. Latta. Well thank you very much, Mr. Chairman. I do 
have a letter from the Wi-Fi Alliance and I would ask unanimous 
consent to have it submitted for the record, and ask for all 
the parties to work together, especially in the 5 gigahertz 
band, to get this thing moving.
    Mr. Walden. Without objection, it will be entered into the 
record.
    [The information appears at the conclusion of the hearing.]
    Mr. Walden. Again, we want to thank you all for your 
counsel and your hard work, and we look forward to continuing 
to free up spectrum and create jobs and take care of our men 
and women in uniform and their needs.
    So with that, the hearing stands adjourned.
    [Whereupon, at 12:45 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]


    [GRAPHIC] [TIFF OMITTED]     

                                 <all>

</pre></body></html>
